<html>
<title> - INFRASTRUCTURE NEEDS OF MINORITY SERVING INSTITUTIONS</title>
<body><pre>[Senate Hearing 108-839]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-839

         INFRASTRUCTURE NEEDS OF MINORITY SERVING INSTITUTIONS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 13, 2003

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation



                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

98-246

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001




           COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
SAM BROWNBACK, Kansas                JOHN B BREAUX, Louisiana
GORDON SMITH, Oregon                 BYRON L DORGAN, North Dakota
PETER G. FITZGERALD, Illinois        RON WYDEN, Oregon
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
                                     FRANK LAUTENBERG, New Jersey

      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 13, 2003................................     1
Statement of Senator Allen.......................................     1
Prepared statements submitted by Senator Allen:
    Givens, Jr., Henry, President, Harris-Stowe State College....     3
    Henson, David B., President, Lincoln University..............     4
    Moore, Jr., Eddie N., President, Virginia State University...     3
Statement of Senator Lott........................................     6
    Prepared statement...........................................     8

                               Witnesses

DeLauder, Dr. William B., President, Delaware State University...    10
    Prepared statement...........................................    13
Fernandez, Dr. Ricardo, President, Herbert H. Lehman College.....    14
    Prepared statement...........................................    17
Flake, Dr. Floyd H., President, Wilberforce University...........    22
    Prepared statement...........................................    28
    Prepared statement of William H. Gray, III., President and 
      CEO, UNCF..................................................    22
McDemmond, Dr. Marie V., President, Norfolk State University.....    29
    Prepared statement...........................................    31
Monette, Dr. Gerald ``Carty'', President, Turtle Mountain 
  Community College..............................................    35
    Prepared statement...........................................    37

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    49
Lautenberg, Hon. Frank, U.S. Senator from New Jersey, prepared 
  statement......................................................    49

 
         INFRASTRUCTURE NEEDS OF MINORITY SERVING INSTITUTIONS

                              ----------                              


                      THURSDAY, FEBRUARY 13, 2003

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. George Allen 
presiding.

            OPENING STATEMENT OF HON. GEORGE ALLEN, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Allen. Good afternoon to everyone. I would like to 
begin this hearing of the Commerce Committee. I first want to 
thank the Chairman of this Committee, Senator John McCain, who 
is the cosponsor of this legislation, for allowing us to have 
this very prompt hearing on this important measure, and I also 
want to state my appreciation to him for allowing me to chair 
this Committee.
    I do want to say that not only is Senator McCain a 
cosponsor of this measure; so is Senator Stevens, who is the 
Chairman of the Appropriations Committee. The ranking Democrat 
on this Committee, Fritz Hollings, is also a cosponsor, and 
there are others, including Senator Lott of Mississippi, and 
many others.
    And I think from this hearing, I hope we will get even 
greater support for it and we will get a vote on this measure, 
provided each of your testimony is probative, inspirational, 
and motivational to this Committee, and I am sure it will be.
    We are going to examine in the Committee today the 
technology infrastructure needs of Minority Serving 
Institutions and the efforts by such institutions to address 
what is often referred to as the ``digital divide.'' It is 
primarily an economic digital divide, but the institutions 
which you all serve in your various capacities of leadership 
are those who do understand the economics of it and recognize 
the needs.
    I have always been one to look at ways to improve 
education. I think education is a key to the future. The best 
jobs are going to go, in the future, to those who are the best 
prepared. And regardless of one's religion or ethnicity or 
one's race, education is a part of that equal opportunity that 
is so essential for one to compete and succeed in life.
    I am also one--when Senator Lott was leader--and I am 
grateful he had me as Chairman of the High-Tech Task Force, and 
I feel very strongly that technology is key to the future of 
our competitiveness and our military security in a variety of 
ways, and technology is obviously the key to the future for our 
students as they face tomorrow's challenges.
    In my view, increasing access to technology provides our 
young people with an important tool for educational and future 
economic success. We are all aware that access to the Internet 
is not a luxury; it is a necessity. And because of the rapid 
advancement and growing dependence on technology, being 
digitally connected and digitally proficient becomes more and 
more important.
    Today, we are here to discuss Senate Bill S. 196, the 
Digital and Wireless Technology Program Act, the legislation 
that I introduced this year to allow Minority Serving 
Institutions an opportunity to acquire technology equipment, 
hardware and software, digital network technology, and wireline 
and wireless infrastructure such as wireless fidelity or WiFi, 
to develop and provide educational services.
    Sixty percent of all jobs require information technology 
skills, and jobs in information technology pay significantly 
higher salaries than jobs in the non-information technology 
fields. Students who lack access to information technology 
tools are at an increasing disadvantage, both academically and 
economically, for jobs. Consequently, it is important that all 
institutions of higher education provide their students with 
access to the most current technology and digital equipment. 
Many Minority Serving Institutions, however, still lack basic 
information and digital technology infrastructure.
    A study completed by the Department of Commerce and the 
National Association for Equal Opportunity in Higher Education 
indicated these following points. No historically black college 
or university requires computer ownership for their 
undergraduate students. That may have changed since that 
report, but as of the date of that report, none did.
    Thirteen Historically Black Colleges or Universities were 
reported to have no students, not one, owning a personal 
computer. That may not be the case for yours, but 13 out of 103 
had no one owning a personal computer.
    Another point. Over 70 percent of the students at 
Historically Black Colleges and universities rely on 
universities to provide computers. However, only 50 percent 
provide students with access to computers in computer 
laboratories, libraries, classrooms, or other locations.
    Another point: Only 3 percent of Historically Black 
Colleges and universities have financial aid available to help 
students close the computer ownership gap.
    So in a time when minority serving colleges and 
universities are increasingly facing problems, as far as 
financing, on a variety of fronts, they lack also, in many 
cases, in most cases, the foundational, the private 
foundational, assistance to support and upgrade their network 
infrastructure.
    It is essential that resources, new resources, are made 
available to properly educate and prepare students who have, 
clearly do have, if given the opportunity, the education, the 
technology, and the infrastructure, the capability to lead for 
themselves fulfilling lives and contribute their talents in 
private enterprise or security or education.
    This measure, the Digital Wireless Network Technology 
Program Act of 2003, seeks to address the technology gap that 
exists at many Minority Serving Institutions. The legislation 
establishes a new grant program within the National Science 
Foundation that provides up to $250 million over a five-year 
period to help bridge the digital divide at Minority Serving 
Institutions.
    And I do want to welcome our five witnesses appearing 
before the Committee today and thank them for their willingness 
to testify on this important topic. I will introduce each of 
you as we go forward.
    I do want to, without any objection, submit for the record 
a statement from the President of Virginia State University, 
Eddie Moore, supporting S. 196 and our efforts in the 
Committee, and also on behalf of Senator Talent, of Missouri, I 
would put in the written testimony provided by two Historically 
Black Colleges and universities from Missouri.
    [The information referred to follows:]

         Prepared Statement of Eddie N. Moore, Jr., President, 
                       Virginia State University
    In my role as President of Virginia State University, I fully 
support the Digital and Wireless Network Technology Act of 2003, S. 
196, submitted by Senator George Allen. The legislation to provide $250 
million in grants to minority serving institutions, including 
Historically Black Colleges and Universities and Hispanic Serving 
Institutions, to aid in bridging the ``digital divide in higher 
education,'' is certainly needed. With the challenges America faces and 
the current state of affairs, economically and socially, it is critical 
that ``no child be left behind.''
    As we move into a society that is solely dependent on computers and 
technology-driven lifestyles, we must establish ways to ensure the 
broadest possible access to the tools necessary to survive in this 
electronic age. Members of society must have the ``choice'' to enjoy 
the efficiencies that technology promises; therefore, this bill is just 
as vital to the nation as it is to Virginians.
    It is also critical that the proposed legislation is targeted to a 
portion of the society that to date, is underrepresented in technology 
careers, In an attempt to respond to market demands and the trends of 
the career market, in 2001, Virginia State University began to offer 
two degree programs--computer science and computer engineering, In only 
two years, the programs have enrolled nearly 150 students. Statistics 
predict that we will enroll more than 400 over the next four years. 
This bill will not only increase access for students, but also 
surrounding communities and the region will benefit.
    In final, this legislation is timely, and I am sure that my 
colleagues in higher education, agree, that we can put it to good use. 
Therefore, I whole-heartedly support Senator George Allen's proposed 
legislation, Digital and Wireless Network Technology Act of 2003, S. 
196. It is a step in the right direction for our students, communities 
and more importantly, the future of the nation. I hope that the Senate 
Commerce Committee will rule on it favorably.
                                 ______
                                 
          Prepared Statement of Henry Givens, Jr., President, 
                       Harris-Stowe State College
    For almost 150 years, Harris-Stowe State College has been committed 
to providing high quality education to residents of the St. Louis 
Metropolitan area. With roots in two historic St. Louis Institutions, 
Harris Teachers College (1857) and the African-American Stowe Teachers 
College (1890), Harris-Stowe State College is a unique institution 
offering a rich, multi-cultural environment in which students and 
faculty from a wide variety of economic, educational, ethnic and racial 
backgrounds learn and work together in harmony. Harris-Stowe State 
College offers twelve (12) degree programs in Teacher Education, Urban 
Specialization, and Business Administration, with an enrollment of 
approximately 2000. The College provides unlimited opportunities to 
many Metropolitan St. Louisans who otherwise would not have access to 
such.
    Harris-Stowe State College is wired for high speed with (LAND) 
connection access across the campus. We have infrastructure in place 
and are constantly working to obtain both hardware and software 
sufficient in quantity and quality to meet the needs of students, 
faculty, and the community. Currently we have computer education 
programs for students and faculty along with academic technology 
components. All programs at the College require a number of technology 
competencies in learning, teaching, and the demonstration of knowledge. 
The technology staff on board is very competent and, through the MORE 
Net receives updated training, workshops and conferences that provide 
certification to work with faculty and staff.
    Harris-Stowe State College has been committed to the steady 
increase of technology in teaching and learning for the past twenty-
five (25) years; thus, the bill under consideration will strengthen the 
College's ability to continue moving forward toward the establishment 
of a wireless campus. Such a campus will provide faster and more 
efficient service to our students, faculty and the community. This 
development will enable our students and faculty to take advantage of a 
variety of sources in the learning process, such as distance learning, 
online services, and continuing education. It will also enable the 
College to effectively serve additional populations within the 
Metropolitan St. Louis area. For these reasons, Harris-Stowe State 
College enthusiastically supports Senate Bill 196, ``Digital and 
Wireless Network Technology Program Act of 2003''.
                                 ______
                                 
  Prepared Statement of David B. Henson, President, Lincoln University
    Lincoln University, Jefferson City, Missouri, is very pleased to 
have this opportunity to work with Senator Jim Talent and this 
initiative to assist in strengthening the technology infrastructure of 
Historically Black Colleges and Universities. We strongly support this 
initiative and sincerely hope that it passes.
    Lincoln University is an 1890 land-grant institution which is part 
of the Missouri state system of higher education. Founded in 1866 
through the cooperative efforts of the enlisted men and officers of the 
62nd and 65th Colored Infantries, Lincoln University was designed to 
meet the educational and social needs of freed African-Americans.
    ``The core Mission of Lincoln University is to provide excellent 
educational opportunities for a diverse population in the context of an 
open enrollment institution. The University provides student centered 
learning in a nurturing environment, integrating teaching, research, 
and service. Lincoln University offers relevant, high quality 
undergraduate and select graduate programs that prepare students for 
careers and lifelong learning. These programs are founded in the 
liberal arts and sciences and focused on public service professions 
that meet the academic and professional needs of its historical and 
state-wide student clientele.''
    The enrollment at Lincoln University for Fall 2002 was 3,092. There 
were 1,195 men and 1,897 women. There were 18 Asian/pacific Islanders, 
25 Native Americans, 1,016 African Americans, 25 Hispanics, 1824 
Caucasians 169 Non-Resident Aliens and 15 Other Aliens.
    Among the various degrees offered, Lincoln University offers the 
Bachelor of Science degree in the following areas of Science and 
Technology:

        Biology
        Medical Technology
        Chemistry
        Mathematics
        Physics
        Civil Engineering Technology
        Computer Information Systems
        Mechanical Technology

    Below are the two-year degree programs that are technology related:

        Drafting Technology
        Computer Science and data Processing
        Pre-Engineering

    Lincoln University's Institutional strategic plan, Furthering the 
Dream, recognizes the university's need to continue to pursue its 
traditional goals while at the same time change, improve, and meet the 
challenges of the new century to better serve our various 
constituencies. The importance of the technology infrastructure and 
supporting systems is in direct relation to our capacity to support the 
core mission of the institution.
    The availability of funding from the proposed National Science 
Foundation Office of Digital and Wireless Network Technology to support 
our technology needs will enable Lincoln University to accomplish 
multiple strategic plan objectives that will strengthen our institution 
and enhance our ability to make available research and educational 
opportunities to our diverse student population. Lincoln's core 
infrastructure and technology management support is solid. But, to 
continue to remain competitive and offer the technology required in 
today's learning environments, additional funding for equipment and 
support of the infrastructure is required.
    Lincoln University seeks the capacity and support resources 
required to integrate information technology into curriculum 
development and pedagogical practices to enhance the quality and 
effectiveness of the teaching and learning environment for our 
students. We will use the funds to further implement the functionality 
of our web server application, Blackboard, to enable Lincoln to become 
a complete e-Education enterprise offering online teaching and learning 
capabilities, the development of campus communities and the promotion 
of efficiencies in faculty and staff use through Blackboard's 
integrated interface with our Administrative Computing System, Datatel 
Colleague.
    Lincoln is challenged to increase student enrollment. The ability 
to provide innovative course delivery options to proactively and 
competitively position Lincoln University within its market to meet the 
unique needs of our diverse student population is critical. The funds 
will be used to upgrade the level of software maintenance and support; 
acquire learning technology management; provide instructional 
development that would include course management system training for 
all faculty, pedagogical training and course development; ongoing 
faculty and student support, infrastructure and network support. 
Enterprise application integration will include consulting, project 
management, application development and the integration of the 
Blackboard application into the university's web portal environment.
    Funding will allow Lincoln to enable more of its classrooms to be 
classroom smart through the purchase of equipment and the 
implementation of high-speed connectivity required to further integrate 
classroom technologies into our curriculum. Our backbone network switch 
is upgradeable and, with additional funding, can support high speed and 
bandwidth necessary to provide quality of service video connectivity to 
the classroom. New equipment will allow instructors to bring video 
clips, presentation software and Internet resources direct to the 
classroom. Funding will be used to purchase this equipment, train 
faculty on its use and maintain support of it for reliable and 
effective use in the classroom.
    Lincoln desires to strengthen our faculty resources, both through 
the ability to offer competitive compensation packages and the ability 
to increase the number of faculty retained, to instruct our students 
enrolled in our academic programs offered through our Department of 
Computer Science and Technology. Availability of new funding will 
afford us this opportunity.
    The ability to enhance student academic laboratory facilities to 
incorporate technological solutions that can provide remedial tutorial 
assistance to students challenged with below average core competencies 
will help promote our students' success and improve the institution's 
overall retention rate.
    Our new Administrative System, Datatel Colleague, will enable 
Lincoln to offer a higher level of customer services to our students. 
We hope to provide students and the community with online and web-
enabled access to Lincoln University general information, access to 
admissions, enrollment, financial aid, bookstore and library schedules, 
billing information and services and secure access to the student's own 
university record.
    Internet access is available from our residence halls, however only 
a small group of students today are in a financial position that allows 
them to purchase personal computers for their residence hail rooms. Our 
institutional plan, Furthering the Dream, challenges us to find a way 
to provide personal computers for each student as part of their 
learning experience at Lincoln University. We feel that technical 
competence is a lifelong learning skill that all students require. 
National Science Foundation funding will allow that dream to become a 
reality for our students. Students can master technical competence, use 
self-service administrative functionality via our web portal and have 
access from their residences for anytime access to research and 
educational opportunities available over the Internet.
    Expanding on this concept, Lincoln desires to enhance the social 
experience of our diverse population by making portions of our campus 
wireless. This will encourage the use of the computing devices to be 
anywhere, anytime on campus. Increasing the marketability of Lincoln 
through integration of this kind of technology into the campus 
lifestyle will make Lincoln more attractive to future and current 
students, thus assisting Lincoln in its recruitment and retention 
efforts.
    New classroom technologies and new service delivery methods make it 
a requirement for all faculty and staff to have equipment that supports 
those abilities. Lincoln would like to be financially able to implement 
a personal computer lifecycle plan that allows for each faculty and 
staff member to have access to current and vital computing equipment.
    Additionally, Lincoln will integrate the training required to 
support the delivery of enhanced student services made available 
through the technological progress into a structured Human Resources 
professional development program. We will design a structured training 
program offered through our Center for Teaching and Learning that spans 
basic computing navigation and skill development through advanced uses 
of technology in curriculum design and development. On-going 
professional development opportunities and follow-up support will be 
provided in a variety of formats thus ensuring that the functional and 
advanced operational skills necessary for each department to fully 
utilize technology to operate efficiently and effectively are 
obtainable. An assessment system to measure the effectiveness of 
professional development activities would be an essential part of the 
professional development program.
    Our plan is for Lincoln University to develop and foster internal 
and external partnerships and collaborations, to include business and 
industry, governmental agencies and educational institutions that 
contribute to excellence. It is in this spirit that Lincoln will use 
funding made available through the National Science Foundation to 
achieve greater collaboration between institutions of higher learning, 
governmental agencies and business partners, not only in our community 
but globally.

    Senator Allen. I would now like to turn it over to Senator 
Lott for any opening comments he would make, and then I will 
introduce each of you as witnesses.
    Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Well, thank you, Mr. Chairman, for having 
this important hearing today on these issues surrounding the 
technology gap that exists at many of our Minority Serving 
Institutions. I would like to ask that my entire statement be 
made part of the record.
    Senator Allen. Without objection.
    Senator Lott. I also want to thank this distinguished panel 
for being here, and I want to particularly recognize my good 
friend and colleague from my years in the House, former 
Congressman Flake. As I like to say, he has moved on to better 
and higher callings since he left the House, and does a 
fantastic job. It is good to see you again.
    I do also want to note that there is no representative of 
Mississippi Historically Black Colleges and universities, here 
today and I am sorry about that. Next time, we will make sure 
there is a representative from Alcorn or Jackson State or 
Tougaloo or Rust. But I do have on my staff a graduate of 
Alcorn State University Marcus Ward back here, and I will get 
him to submit a statement for the record on behalf of 
Mississippi. I spoke at his commencement a few years ago, and 
then he has been working with me over the years. And we are 
proud of the job that Alcorn State University does in producing 
good students, not just great football players, I might say, 
George Allen, Steve McNair, of course, being the most famous 
one.
    But our nation's Minority Serving Institutions have a rich 
history in educating many of America's best and brightest 
students and future leaders. It is important that we do all we 
can here in Washington to support their cause.
    Of particular concern to me is our nation's Historically 
Black Colleges and universities. But the group of Minority 
Serving Institutions also includes many institutions such as 
tribal colleges and Hispanic Serving Institutions, and I think 
it is important that we note that fact.
    In my own state, roughly 9 percent of the nation's 
Historically Black Colleges and universities serve our students 
there. I want to recognize those eight schools: Alcorn State 
University, Coahoma Community College, Hinds Community College 
at Utica, Jackson State University, Mary Holmes College, 
Mississippi Valley State University, Rust College, and Tougaloo 
College. Next week when I am home, I will be meeting with the 
new president of Tougaloo College to discuss the needs there at 
Tougaloo.
    So I am happy to cosponsor this important legislation. I 
think it can be very helpful to bridging this technology gap 
and providing greater opportunities for our students, who will 
then be able to go out and get a job when they graduate with 
that additional expertise.
    I would also like to note the ongoing commitment we have in 
our state in bridging the technology gap. We worked, for 
instance, with Allstate Insurance to donate a $17 million 
facility that they had left in the Jackson, Mississippi area. 
They had a district office they vacated, a beautiful campus, 
and they donated that to Jackson State University, and it is 
now the Mississippi E-Center. And it is very impressive. It is 
a state-of-the-art complex with advanced computing and 
technology infrastructure and information technology faculty 
and support staff. It has not yet reached the heights we want 
it to, but we think it is going to do a lot to help fulfill 
that University's mission. It provides leverage that we need to 
have in our Historically Black Colleges and universities in 
such critical areas as remote sensing, engineering, science, 
and technology. In fact, we have also established a geospacial 
center for research at Jackson State University with $6 million 
in federal funds, I might add, Senator Allen. So I will put a 
little pressure on you to do something for your universities 
along those lines.
    [Laughter.]
    Senator Lott. But I think this is a great idea. It is a 
challenge. It provides authorization, indicating the money that 
we should invest in this area. It does require, as I understand 
it, a 25 percent match from the universities and colleges, so 
everybody will have to help with this. I am very much a 
supporter of it.
    I might also note that we are trying to do more in our 
state to help kids at the elementary and secondary level. A few 
years ago, I was at San Jose, Senator Allen, at a meeting with 
the high-tech community out there in California, and we went to 
a school and observed a program called Power Up. I do not know 
if you are familiar with it, but this is a program where the 
private sector donates computers to a classroom, usually in 
fifth grade or middle school. You get a teacher trained, with 
Federal funds, on how to teach children how to read by using 
computers. You get two Americorps volunteers that come in and 
work with the teacher. It has a phenomenal effect on these 
young people, many of whom would not learn to use a computer or 
read. But by combining the two, they learn the computer 
capabilities and they learn how to read. Even if they are 
playing basketball game on the computer, they are learning the 
computer. And we now have 55 schools in my state, mostly in the 
Mississippi Delta, that are qualified for that program, and the 
first one being in Canton, Mississippi.
    That type of computer program, that type of reading 
program, leading into what this program can do at our 
Historically Black Colleges and Universities and other minority 
institutions, I think, can really help to begin to bridge the 
technology gap, and I am delighted to be a cosponsor. I am 
pleased that you are having this hearing early.
    I yield.
    [The prepared statement of Senator Lott follows:]

  Prepared Statement of Hon. Trent Lott, U.S. Senator from Mississippi
    Mr. Chairman, thank you for holding this important hearing today on 
the issues surrounding the technology gap that exists at many of our 
country's Minority Serving Institutions. I also want to thank this 
distinguished panel for taking the time to be with us today. Our 
nation's Minority Serving Institutions have a rich history in educating 
many of America's best and brightest students and future leaders, and 
it is important that we do all we can here in Washington to support 
their cause. Of particular concern to me are our nation's Historically 
Black Colleges and Universities, but the group of Minority Serving 
Institutions also includes many outstanding Tribal Colleges and 
Hispanic Serving Institutions.
    My own State of Mississippi is home to roughly 9 percent of the 
nation's Historically Black Colleges and Universities. I am pleased to 
be able to recognize these eight schools in Mississippi: Alcorn State 
University, Coahoma Community College, Hinds Community College--Utica, 
Jackson State University, Mary Holmes College, Mississippi Valley State 
University, Rust College and Tougaloo College. I am happy to be a co-
sponsor of S. 196, the Digital and Wireless Network Technology Program 
Act of 2003, because it provides another opportunity to help the 
Historically Black Colleges and Universities in Mississippi. I always 
pay careful attention to legislation that could be beneficial for 
higher education institutions in my state. In fact, I recently co-
sponsored an amendment to the Omnibus appropriations bill for Fiscal 
Year 2003 that authorizes additional funding for grants to preserve and 
restore structures at Historically Black Colleges and Universities.
    Additionally, I would like to note an example of my ongoing 
commitment to assist Historically Black Colleges and Universities in 
Mississippi in bridging the technology gap. In 2001, I worked with 
Allstate Insurance in their $17 million donation of a facility to 
establish the Mississippi e-Center at Jackson State. The e-Center is an 
impressive state-of-the-art complex with advanced computing and network 
infrastructure, and information technology faculty and support staff. 
Through the e-Center, Jackson State is able to fulfill its educational 
mission and leverage its unique strengths in the areas of remote 
sensing, engineering, science and technology. I am also pleased to 
report that Jackson State is the only Historically Black College or 
University in the nation with three supercomputers. We are making 
strides in Mississippi to provide all our students with access to 
information technology, but the nation still has progress to make when 
it comes to providing for our Minority Serving Institutions of higher 
learning.
    Mr. Chairman, I am pleased to be a co-sponsor of S. 196 because 
this legislation fits perfectly with my primary goals: to improve 
education and transportation, and create jobs for my home State of 
Mississippi and for the country. This bill is aimed specifically at 
improving educational opportunities by expanding the digital and 
wireless technology resources of Minority Serving Institutions in our 
country. The eight Historically Black Colleges and Universities in 
Mississippi would benefit tremendously from the targeted funds that 
would be authorized by this legislation, and as a result, the 
educational opportunities available to students at these institutions 
of higher education would be significantly increased.
    By providing these enhanced educational opportunities both through 
technology and in technological fields, students will be qualified for 
better jobs. Additionally, the availability of these better-trained 
students in the Mississippi workforce will make it easier to recruit 
new businesses and industries to Mississippi--especially businesses and 
industries in the high tech arena. There will even be a transportation 
benefit that will result from the program proposed in this legislation. 
More efficient technological resources and training are a key component 
in the quest for more efficient and safe transportation networks.
    As many of you know, the Commerce Department's National 
Telecommunications and Information Administration--or NTIA--partnered 
with the National Association for Equal Opportunity in Higher Education 
to produce a report entitled ``An Assessment of Networking and 
Connectivity at Historically Black Colleges and Universities.'' This 
study contained some alarming and some encouraging discoveries 
regarding computing resources, networking and connectivity at these 
institutions. For instance, while 98 percent of the respondents report 
having basic access to the Internet, the World Wide Web and campus 
networks, fewer than 25 percent of students at these institutions own 
their own computing resources. It is clear that while these 
institutions of higher learning stand ready to drive from the ``on 
ramp'' onto the Information Superhighway, they still lag far behind 
other universities in America when adjusting to the new technological 
innovations and changes on the forefront, such as Third Generation 
Technology.
    I am pleased that we have such qualified witnesses today to share 
their thoughts and views on this legislation, as well as the state of 
technology and computing resources at Minority Serving Institutions 
across America. It is my hope that this hearing will provide a clear 
understanding and commitment to strengthening the networking, 
connectivity and computing resources for these fine institutions.

    Senator Allen. Thank you, Senator Lott. I know your many 
years of great service in working for the Historically Black 
Colleges and university in Mississippi, and it is a record, I 
am sure, and I know you are rightfully proud of.
    And those AOL Power Up, that is remarkable to have that 
many in one state. Per capita, that is bound to be the best in 
the country. And thank you for your leadership.
    I would now like to introduce our panel. First, Dr. William 
DeLauder, president at Delaware State University for over 16 
years. Delaware State University was founded in 1890. Under Dr. 
DeLauder's leadership, the university has increased the number 
of faculty with doctorates from 44 percent to 72 percent. In 
addition, Delaware State now has implemented new graduate 
programs in the basic sciences, including biology, chemistry, 
physics, that all complement the new undergraduate program in 
computer science.
    Thank you, Dr. DeLauder, for being with us.
    Dr. Ricardo Fernandez, President of Herbert H. Lehman 
College University, City of New York. Dr. Fernandez has 
fostered, as president, increased collaboration between Lehman 
College and other local area schools in the area of technology 
and professional development curriculum. In addition to his 
duties as president, Dr. Fernandez is also professor of 
languages and literature at Lehman College.
    The Honorable Dr. Floyd Flake, who--everyone is glad to see 
you back here, Mr. Congressman--is now president at Wilberforce 
University in Wilberforce, Ohio. It was founded in 1856. 
Wilberforce is the first institution of higher education owned 
and operated by African-Americans. The Reverend Dr. Flake 
served in Congress from 1986 to 1997. Dr. Flake was Senior 
Pastor of the more than 15,000-member Greater African Methodist 
Episcopal Church in New York, and he was President of the 
Edison Charter Schools before becoming President of 
Wilberforce.
    Welcome back, Dr. Flake.
    Dr. Flake. Thank you, sir.
    Senator Allen. Senator Dorgan wanted to be here, but I will 
have the pleasure of introducing Dr. Monette before I go, 
finally, to our Virginia representative. Dr. Monette is the 
president of Turtle Mountain Community College in Belcourt, 
North Dakota. Dr. Monette is one of the founding fathers of the 
tribal college movement and of the 25-year-old American Indian 
Higher Education Consortium. Dr. Monette also serves as a 
member of the National Advisory Group to the Institute of 
Higher Education's new millennium project and is a member of 
the North Dakota Information Technology Council.
    Thank you for being with us.
    And finally--I know it is not in the exact order--but, 
finally, Dr. Marie McDemmond, president of Norfolk State 
University in Norfolk, Virginia. Norfolk State is the fifth 
largest historically black university in our country. Most 
recently, Dr. McDemmond was appointed by President Bush to the 
President's Board of Advisors on Historically Black Colleges 
and Universities, and also appeared before this Committee last 
year with great influence on me as well as other Members of the 
Committee.
    I would say to all of you all as we go forward, I have read 
through all of your very thoughtful and insightful testimony 
that you have provided for today's hearing and will make sure a 
complete text of your testimony is in the record for other 
Members to read and those on the floor and others who would be 
interested.
    What I would like you all to do, if you could, today, in 
the time we have, is focus on this program in S. 196 and how 
this would actually help your college or your university or 
institution and effort. If each of you could elaborate 
specifically on the needs, the technology needs, of your 
college or your university or your endeavors and give some 
tangible examples of how these funds, if they were available, 
would actually tangibly help students in your institutions, 
that would be helpful.
    In other words, basically, if we were to provide you all 
with $2.5 million, what would you do with it and how would that 
help the students at your colleges and universities or 
institutions? I think that is the sort of testimony that would 
be most helpful to us.
    So, with that, I would like to first go to Dr. DeLauder. 
And please share with us your views, Doctor.

STATEMENT OF DR. WILLIAM B. DeLauder, PRESIDENT, DELAWARE STATE 
                           UNIVERSITY

    Dr. DeLauder. Thank you very much, Mr. Chairman, and good 
afternoon.
    Senator Allen. Good afternoon.
    Dr. DeLauder. To the Chairman of this Committee and to 
Senator Lott and to the distinguished Members of the U.S. 
Senate Committee on Commerce, Science, and Transportation, 
ladies and gentlemen, my name is William B. DeLauder. I am the 
President of Delaware State University located in Dover, 
Delaware. And I do want to thank the Chairman and the Committee 
for giving me this opportunity to have a chance to talk to you 
about the importance of technology at the nation's Historically 
Black Colleges and universities.
    I do want to commend the sponsors of Senate Bill 196, 
because, if approved and funded, this bill will provide needed 
funding to bridge the digital divide that does exist between 
many Minority Serving Institutions and majority institutions.
    I speak to you today on behalf of my University, Delaware 
State University, and on behalf of NAFEO. NAFEO, the National 
Association For Equal Opportunity In Higher Education. So I am 
here to represent both of those institutions.
    As the Chairman has indicated, Delaware State University 
was founded in 1891. We were founded as a direct result of the 
second Morrill Act. We are one of the 17 historically black 
land-grant universities. We are a sister institution to Alcorn 
State, Senator Lott, in that regard. And as you probably know, 
NAFEO is the higher educational association that includes and 
represents about 118 historically and predominantly Black 
Colleges and universities within this nation.
    Our nation has become, and rightfully so, immersed with 
technology. Its presence is inescapable in virtually everything 
we do of substance. It is present in our workplaces, in our 
supermarkets, our malls, our libraries, and in our homes, for 
those who are fortunate to have the resources to invest in the 
advantages of technology that technology provides in our 
everyday existence.
    This generation of students is the high-technology 
generation. They enter college more technologically literate 
than previous generations. Their expectations are that 
technology will be extensively utilized in all aspects of 
college life. They make decisions about which college to attend 
in part on the technological capability of a given college or 
university. To be competitive in the recruitment of top 
students, HBCUs must possess the technology infrastructure and 
the expertise to fully utilize technology in teaching and 
learning and in administrative operations.
    Delaware State University developed a technology plan in 
the late 1980s. This plan is a part of the university's 
strategic plan that is updated annually. The university's 
strategic goals and objectives include those that are designed 
to enhance the quality and efficiency of operations and 
services, improving teaching and learning, and improving 
communications between, within, and outside of the campus.
    As a result of planning, of setting priorities, and 
acquiring needed resources, Delaware State University has made 
measurable success in efforts to expand the knowledge, skills, 
and experiences of faculty, students, and staff with our 
information technology infrastructure.
    Delaware State University installed a fiberoptics network 
connecting all academic and administrative buildings on the 
campus somewhere around 1990, 1991. And during the next several 
years, work progressed in connecting all the dormitories to the 
campus network. The time lag in developing the network was due 
primarily to the inability to acquire the needed funds in a 
timely way to complete the connections in a much faster pace.
    The university's library was computerized in the late '80s, 
and computerized literature and information technology began to 
be an important component of the library resources.
    We began to develop a distance-education program in 1997. 
The university provides workshops and a dedicated workroom for 
faculty who desire to develop distance-learning courses. In 
Spring 2003, for example, we had 86 Web-enhanced courses being 
offered by 31 different faculty members for a total of 1,184 
students. And with additional resources, the university desires 
to expand the number of Web-enhanced courses and to begin 
developing and offering online courses in selected disciplines.
    HBCUs vary in their state of technological infrastructure. 
And in Senator Allen's comments, he reflected on that with some 
of those statistics. Some of our institutions are more advances 
than others, but all have varying needs to be able to fully 
utilize the technology.
    For DSU, for example, I will mention a few of those areas 
that we believe are important for us to continue to find the 
resources in order to enhance our technological capability, and 
these are the kinds of things that could be involved in a grant 
proposal for this particular piece of legislation in this 
program.
    One, upgrading our network to have broadband capability so 
that we can enhance the responsiveness of it to handle the 
greater load that we have on our system and to be in the 
position to utilize Internet, too, and to be a part of that 
revolutionary change.
    Second, to upgrade our wiring of several campus buildings 
and/or convert to wireless technology, where it is appropriate 
to do so.
    Three, the need to continuously upgrade computer 
workstations with the latest technology. Technology is changing 
so that even once you buy all the workstations you need, in two 
or three years it is time to do upgrades. And new software 
requires more sophisticated machines to work with.
    Professional development and release time and technical 
support for faculty involved in distance learning. And we are 
also wanting to establish video-conferencing capability between 
two of our off-campus sites that we have located, one in 
Wilmington, and one in the southern part of the State, in 
Georgetown.
    Those are just a few examples of the kinds of things that 
we would see as assisting Delaware State to further develop our 
technology.
    And let me just mention three things that relate 
specifically to the Senate bill that we are considering here 
today. One, I think it should be made clear to the Director of 
the National Science Foundation that the Senate expects that 
representatives from HBCUs will be extensively involved in the 
advisory council, which is required by Section 4(b) of this 
bill. I think that is extremely important.
    Second, it is important to retain the exemption for 
matching funds for institutions with no or small endowments, as 
suggested in Section 5, because this will facilitate the 
involvement of institutions with modest resources. These will 
also be the institutions that have the greatest need for 
improving technological infrastructure.
    And then, third, it is important to involve representatives 
of the HBCU community in the peer-review process used in rating 
proposals, because this will ensure fairness in the review 
process.
    And I conclude, Mr. Chairman, by again commending the 
sponsors of this significant legislation, to thank the Chairman 
and the Committee for providing me with this opportunity to 
appear before the hearing, and, finally, say that all higher 
educational institutions owe it to their students to provide 
state-of-the-art information technology for teaching and 
learning so that all of our students leave us competent to live 
in this information society.
    Thank you.
    [The prepared statement of Dr. DeLauder follows:]

       Prepared Statement of Dr. William B. DeLauder, President, 
                       Delaware State University
    Mr. Chairman, distinguished Members of the U.S. Senate Committee on 
Commerce, Science, and Transportation, ladies and gentlemen, my name is 
William B. DeLauder, President of Delaware State University (DSU) in 
Dover, Delaware. I thank the Chairman for giving me this opportunity to 
come before you to speak on the importance of technology on the 
nation's Historically Black Colleges and universities.
    I commend the sponsors of Senate Bill 196, a bill to establish a 
digital and wireless network technology grant program for Minority 
Serving Institutions. If approved and funded, this bill will provide 
needed funding to bridge the digital divide that exists between many 
Minority Serving Institutions and majority institutions.
    I speak to you today on behalf of my university, Delaware State 
University, and on behalf of NAFEO, the National Association for Equal 
Opportunity in Higher Education. Delaware State University, founded in 
1891 as a direct result of the Second Morrill Act, is one of the 17 
Historically Black land-grant universities within the United States. We 
serve approximately 3,300 students in programs at the baccalaureate and 
masters levels. Our degree programs include the traditional arts and 
science disciplines and degree programs in agriculture, business, 
education, social work, airway science, and nursing. As you probably 
know, NAFEO is the higher educational association that includes and 
represents the Historically and predominately Black Colleges and 
universities.
    One third of all African Americans with undergraduate degrees 
earned them from a Historically Black college and university (HBCU). So 
it can be unequivocally said that HBCU's are providing immeasurable and 
invaluable service to the educational strength, growth and vitality of 
our nation.
    Our nation has become, and rightfully so, immersed with technology. 
Its presence is inescapable in virtually everything we do of substance. 
It is present in our workplaces, our supermarkets, our malls, our 
libraries and in our homes for those who are fortunate to have the 
resources to invest in the advantages technology provides in our 
everyday existence.
    This generation of students is the high technology generation. They 
enter college more technologically literate than previous generations. 
Their expectations are that technology will be extensively utilized in 
all aspects of college life. They make decisions about which college to 
attend, in part, on the technological capability of a given college or 
university. To be competitive in the recruitment of top students, HBCUs 
must possess the technology infrastructure and the expertise to fully 
utilize technology in teaching and learning and in administrative 
operations.
    Students who enter HBCU's think critically, have a budding desire 
to engage in cutting edge research and have a commitment to academic 
excellence. Our institutions can do no less than to maintain their 
enthusiasm for learning. Our institutions understand and appreciate the 
obligation to prepare students for productive lives, to contribute to 
society and make a difference in their communities.
    The mission of the majority of the nation's Historically Black 
Colleges and universities is teaching, research and public service. An 
infusion of state-of-the-art technology at these institutions would 
significantly and dramatically increase their ability to prepare 
students for success in an ever-increasing global society.
    Delaware State University developed a technology plan in the late 
80's. This plan is a part of the University's strategic plan that is 
updated annually. The University's Strategic Plan includes goals and 
objectives on the use of technology. The goals include enhancing the 
quality and efficiency of operations and services, improving teaching 
and learning, and improving communications both within and outside of 
the campus.
    As a result of planning, setting priorities, and acquiring needed 
resources; Delaware State University has had measurable success in 
efforts to expand the knowledge, skills and experiences of faculty, 
students, and staff with our information technology infrastructure. The 
University is committed to raising the level of technology to its 
highest standard in keeping with its own agenda and the availability of 
funding.
    Delaware State University installed a fiber optics network 
connecting all academic and administrative buildings on campus in 1990-
91. During the next several years, work progressed in connecting all 
dormitories to the campus network. The time lag in developing the 
network was due to delays in acquiring the needed funds to complete the 
connections. The University's Library was computerized in the late 80's 
and computerized literature and information technology began to be an 
important component of the library's resources.
    DSU began to develop a distance education program in 1997-98. The 
University provides workshops and a dedicated workroom for faculty who 
desire to develop distance learning courses. In Spring 2003, 86 web-
enhanced courses are being offered by 31 faculty members with a total 
of 1,184 students. With additional resources, the University desires to 
expand the number of web-enhanced courses and to begin developing and 
offering on-line courses in selected disciplines.
    The use of technology holds tremendous promise at DSU and other 
HBCU's. For example, the move from need to merit based funding at 
public institutions require that even more resources be allocated to 
advising and retention services. We believe technology can be employed 
creatively to generate more and higher quality services with faculty 
previously assigned to other tasks.
    As a result, we will expand the student-centered nature of our 
university and enhance the instructional quality of our programs.
    Moreover, we believe the administrative efficiency of our 
institutions can be increased with more targeted applications of 
technology, shared functionality, and cooperative services using 
technologies and communications systems. Technology also will enable 
Delaware State and other HBCU's to create realistic environments for 
students to learn to compete in the worlds outside their respective 
campuses. In a very real way, I believe technology will truly increase 
our ability to provide quality education for a diverse student body, 
training and development for dedicated faculty and improved community 
outreach services through sophisticated transfer networks.
    With regard to Senate Bill, I offer the following comments:

        (1) It should be made clear to the Director of the National 
        Science Foundation (NSF) that the Senate expects that 
        representatives from HBCUs will be extensively involved on the 
        Advisory Council required by Section 4(b) of the Bill.

        (2) It is important to retain the exemption for matching funds 
        for institutions with no or small endowments (Section 5) 
        because this will facilitate the involvement of institutions 
        with modest resources. These will also be the institutions that 
        have the greatest need for improving their technology 
        infrastructure.

        (3) It is important to involve representatives of the HBCU 
        community in the peer review process used in rating proposals. 
        This will ensure fairness in the review process.

    I again commend the sponsors of this significant legislation and I 
thank the Chairman and the Committee for this opportunity to appear at 
this hearing.

    Senator Allen. Thank you. Thank you, Dr. DeLauder, for your 
remarks, all your provisions, specifically with the bill. I 
understand, in drafting this, on the National Science 
Foundation, some of the concerns. You do not have to be a 
stepchild to any other university in this. The peer review and 
the participation by Minority Serving Institutions, 
Historically Black Colleges and universities, will be part of 
that confidence that you have in the applications.
    Since you have brought up wireless, which I think has great 
potential, and hopefully we will get a good wireless bill 
through this Committee as well, allocating that unlicensed part 
of the spectrum for high speed. The president of Virginia Union 
University is here in the room, Dr. Bernard Franklin. They have 
figured out how to put in wireless. They have done it. Also, 
St. Paul College President, Dr. Waddell, I think, is here. 
Okay, there you are. Thank you all for being here.
    Now, I would like to hear from Dr. Fernandez.

        STATEMENT OF DR. RICARDO FERNANDEZ, PRESIDENT, 
                   HERBERT H. LEHMAN COLLEGE

    Dr. Fernandez. Thank you, Senator Allen, and good 
afternoon. Good afternoon to all Members of this Committee.
    I am honored to testify on behalf of HACU, the Hispanic 
Association of Colleges and Universities, and the Hispanic 
higher education community in support of Senate 196, the 
Digital and Wireless Network Technology Program Act.
    My name is Ricardo Fernandez, and I am in my 13th year as 
President of Herbert H. Lehman College of the University, City 
of New York. Lehman is a four-year, comprehensive public 
institution located in Bronx County, New York. I am the Vice 
Chair and chair-elect of the Board of the American Association 
of Higher Education and Chair of the Hispanic Educational 
Telecommunications System, a consortium of 18 Hispanic Serving 
Institutions engaged in distance education. I am also a past 
Chair and current Board member of the Board of HACU.
    Half of all Latino students engaged in higher education 
attended HSIs. In urban areas across the country, HSIs also 
educate a significant percentage of African-American students. 
In my own institution, for example, 44 percent of the students 
are Latinos, while 33 percent are African-Americans. Therefore, 
any program that assists such HSIs will also benefit other 
minority group members attending such institutions.
    The number of Hispanic Serving Institutions is expected to 
grow proportionately over the next 10 or 15 years with the 
population, so it is important that bills such as the one under 
consideration be supported, because they will provide urgently 
needed resources to meet the demands in educational training 
that is required in our technologically driven economy.
    A great number of the Latinos coming to higher education 
are first-generation students. At Lehman, for example, 51 
percent of our students are the first in their families to 
attend college. Twenty-five percent of them have parents with 
an eighth-grade education or less, and 58 percent have 
household incomes of less than $30,000. Fifty-five percent of 
them, moreover, work at least 20 hours or more.
    At my own institution, to get to the request that you 
asked, to be specific, we are struggling to provide access to 
network to students and faculty. Providing fiber and copper 
cabling, switches, and routers to every building and classroom 
is simply very expensive; for us, really cost prohibitive. 
Through grants and special capital allocations, we have been 
able to provide Internet access to faculty and students at the 
campus library, at our information technology center. We have a 
number, also, of ``smart'' classrooms--that is, classrooms 
equipped with voice, data, and video connectivity for video 
presentation and video-conferencing. However, these classrooms 
are too few to have a significant impact on large numbers of 
students.
    Wireless networking is a relatively low-cost means of 
providing access to the Internet to students, faculty, and also 
to the surrounding communities. At Lehman, we have begun a 
limited project to provide campus-wide access to the network 
through wireless technology.
    Currently, we have a dozen access points deployed 
throughout the campus to provide Internet access. These include 
the student cafeteria, the library, and three classrooms. This 
was accomplished through specialized funding and grants. 
However, we would need approximately 100 access points through 
our 37-acre campus in order to have a true wireless network for 
students. At the pace we are moving, the technology we are now 
installing may well be obsolete before the project is finished.
    One useful resources has been the advanced network for 
Minority Serving Institutions project. This is an NSF-funded 
grant managed by EDUCAUSE, serving a hundred institutions, all 
of them designated HBCUs, HSIs, and tribal colleges. Lehman is 
part of this network and is benefitting, along with the two 
community colleges in the Bronx that are among our highest 
feeders.
    Projects such as the AN-MSI have attempted to address the 
concerns of Minority Serving Institutions as they seek to 
develop and expand network capabilities. This bill, S. 196, 
represents hope for institutions such as ours to provide 
students with the necessary technological skills needed in 
today's economy.
    The opportunity to expand collaborations with schools 
through teacher training programs means that those schools will 
have teachers trained in the latest modalities in order to 
incorporate the use of technology in school curriculum.
    At our institution, we struggle to integrate technology 
into the curriculum. A lot of the faculty, a lot of the older 
faculty, still teach with their notes. Some of the younger 
faculty, that are more acquainted with technology and less 
afraid, are able to incorporate and make those lectures and 
activities a lot more exciting.
    We have received a FIPSE grant from the Department of 
Education, and it has allowed our division of education to 
develop an infrastructure of local area networks to incorporate 
technology into teacher and counselor education programs. Three 
wireless classrooms, the ones that I referred to earlier, are 
part of that. As the next step, we want to develop wireless 
classrooms at two elementary schools to facilitate teacher 
training and professional development.
    Through several projects, we have already gained access and 
are involved with every school district in the borough and 
dozens of schools in our neighborhoods. We have, for example, a 
Gear Up grant, which has enabled us to provide computers and 
training on how to use them to gain access to the Internet to 
hundreds of students and parents in six school districts in the 
Bronx.
    We also have--and I want to just mention this 
parenthetically--we also have a Small Business Development 
Center on our campus that serves the borough. And one of the 
specific activities that I have been promoting, in line with 
the mission of our school, reaching out to the community, is to 
make that center assist small businesses in becoming more 
technologically proficient. And it seems to me that, through 
that, through this type of legislation, that what helps the 
institution would also result in helping the Small Business 
Development Center become a better server of technology to the 
small business community, which often does not know and is in 
very great need of that.
    One final point I just want to make in my comments, and 
that is that I, too, support the provision in this bill that 
allows a waiver of the matching requirement for institutions 
with no endowment or with an endowment of less than $50 million 
in current value. This is vital for most Minority Serving 
Institutions. Most of our institutions have small endowments, 
or many have no endowments to speak of at all. Without a waiver 
of this provision, they would be effectively foreclosed from 
taking advantage of the funding opportunities provided for in 
this bill. And I urge you strongly to keep this provision.
    I am very much encouraged by the Senate's recognition of 
the need of Minority Serving Institutions to expand their 
digital and wireless network capabilities, and that 
policymakers such as you are considering a bill that addresses 
this need directly. I applaud your leadership, Senator Allen, 
the leadership of Chairman McCain, and the many cosponsors of 
this critically important bill.
    On behalf of the Hispanic higher education community and 
speaking in general about Minority Serving Institutions, I 
would urge the support of this Senate Bill 196.
    Thank you very much.
    [The prepared statement of Dr. Fernandez follows:]

        Prepared Statement of Dr. Ricardo Fernandez, President, 
                       Herbert H. Lehman College
Introduction
    Good afternoon Senator McCain and Distinguished Members of the 
Committee.
    I am honored to testify on behalf of HACU and the Hispanic higher 
education community in support of S. 196, the Digital and Wireless 
Network Technology Program Act. My name is Ricardo R. Fernandez and 
this is my thirteenth year as President of Herbert H. Lehman College of 
the University, City of New York System. Lehman College is a four-year 
comprehensive public institution, which is located in Bronx County, New 
York. I am the Vice Chair/Chair-elect of the Board of the American 
Association of Higher Education (AAHE) and Chair of the Hispanic 
Educational Telecommunications System, (HETS), a consortium of eighteen 
Hispanic Serving Institutions (HSIs) engaged in distance education. I 
am also a past Chair and current Board member of the Hispanic 
Association of Colleges and Universities (HACU).
    HSIs are fast becoming an important national resource for the 
education of Hispanics and other minority groups in the nation. Half of 
all Latino students engaged in higher education attend HSIs. In urban 
areas across the country, HSIs also educate a significant percentage of 
African-American students. In my own institution, 44 percent of the 
students are Latinos, while 33 percent are AfricanAmericans and Black 
students from the Caribbean Islands. Therefore, any programs that 
assist such HSIs will also benefit other minority group members 
attending such institutions.
    It is well known that the Latino population has rapidly expanded to 
become the largest minority group in absolute numbers in the nation. 
The number of Hispanic Serving Institutions is expected to grow 
proportionately over the next five to ten years. Our nation and economy 
will demand that Latinos be educated and trained in the latest 
technological innovations in telecommunications and bio-technology, 
among others. The skills necessary to function in these areas as well 
as to become productive members of our economy and assume leadership 
roles in our society can only be provided through higher education. The 
proposed bill S. 196, as written, would serve to provide Minority-
Serving Institutions (MSIs), including HSIs, with important and 
urgently needed resources to meet the quality demands in educational 
training required in our technological driven economy.
    Many Latino students come to our institutions with barriers such as 
low income and family obligations. A great number of Latinos are first-
generation college students. At Lehman College, for example, 51 percent 
of our students are the first in their family to attend college. 
Twenty-five percent of them have parents with an 8th grade education or 
less, and 58 percent have household incomes of less than $30,000. In 
urban areas where housing is not affordable, additional pressures are 
placed on students to make financial contributions to their households. 
At Lehman College, 55 percent of our student body works at least 20 
hours or more.
    A recent study from the Pew Hispanic Center revealed that although 
Latino students are attending college proportionately to the 
population, they are not completing college at an appropriate rate. 
There are many impediments that make it difficult for Latino students 
to persist in college and to graduate. Some could be addressed by 
providing opportunities to study without being physically in classroom 
for a full program. Distance education can assist in fulfilling this 
gap. To be sure, more can and should be done to incorporate 
asynchronous modalities into college courses and assignments. While in 
school, students must learn how to use the technological resources 
available in our society. These include tools such as portals and the 
manipulation of information and data provided through the Internet. Too 
often, educational institutions lack the appropriate network 
capabilities to expose students to the power of the Internet or to 
teach them how to access information with these new modalities. In 
addition, current fiscal conditions in many states across the nation 
make it impossible for institutions of higher education to receive the 
resources necessary to provide these modalities.
    At my own institution we are still struggling to provide access to 
the network to students and faculty. Providing fiber and copper 
cabling, switches and routers to every building and classroom is simply 
cost prohibitive. Through grants and special capital allocations, we 
have been able to provide Internet access to faculty and students at 
the campus Library and at our Information Technology Center. We have 
several ``smart classrooms,'' that is, classrooms equipped with voice, 
data and video connectivity for video presentation and video-
conferencing. However, these classrooms are too few to have a 
significant impact on large numbers of students.
    Wireless networking is a relatively low-cost means of providing 
access to the Internet to students, faculty and also to surrounding 
communities. At Lehman College we have begun a limited project to 
provide campus-wide access to the network through wireless technology. 
Currently we have a dozen access points deployed throughout the campus 
to provide students with Internet access. These include the Student 
Cafeteria, the Library and three classrooms. This was accomplished 
through specialized funding and grants. However, we would need 
approximately one hundred access points through our 37-acre campus in 
order to have a ``true wireless network'' for our students. At the pace 
that we are moving, the technology may well be obsolete before the 
project is finished.
    One useful resource has been the Advanced Network for Minority 
Serving Institutions (AN-MSI) Project. This is an NSF-funded grant 
managed by EDUCAUSE, serving 100 institutions, all designated as HBCUs, 
HSIs and Tribal Colleges. Lehman College is part of this network and is 
benefiting, along with the two CUNY community colleges in The Bronx. 
Projects such as the ANMSI have attempted to address the concerns of 
MSIs as they seek to develop and expand their networking capabilities. 
This bill S. 196 represents hope for institutions such as ours to 
provide students with the necessary technological skills needed in 
today's economy. In addition, the opportunity to expand collaborations 
with schools through teacher training programs, means those schools 
will have teachers trained in the latest modalities in order to 
incorporate the use of technology in school curricula.
    At Lehman a FIPSE grant has enabled the Division of Education to 
develop an infrastructure of Local Area Networks (LANs) to incorporate 
educational technology into their teacher and counselor education 
training program. The three wireless classrooms I referred to earlier 
are in this program. As a next step we plan to develop wireless 
classrooms at two local elementary schools to facilitate teacher 
training and professional development. Through several projects we are 
already involved with every school district and dozens of schools in 
the borough. We have a Gaining Early Awareness and Readiness for 
Undergraduate Programs (GEAR-UP) grant which has enabled us to provide 
computers (and training on how to use them to gain access to the 
internet) to hundreds of students and their parents.
    We also have an initiative called the Bronx Information Network 
(BIN), which is a consortium of 70 educational and health community-
based organizations focused on the cooperative use of technology. As 
the funding for this project has come to an end, the member 
organizations are not able to afford paying for access to the Internet. 
This bill opens up great possibilities for Lehman College and like 
institutions to continue working with their surrounding communities. 
One concrete example lies in the fact that many colleges and 
universities operate Small Business Development Centers. By expanding 
the technological capacity of their operations these SBDCs could reach 
a wider segment of the small business owners and to help make in the 
application of technology to make their business ventures more 
efficient and profitable. Continuing professional training for health 
care workers who need to upgrade their skills can be provided 
conveniently at their place of work or at home through asynchronous 
modalities. These are just a few concrete examples of the specific 
needs that institutions of higher education can address with the funds 
that S. 196 would provide.
    There is one final point that I would like to make. Section 5 of S. 
196 allows a waiver of the matching requirement for institutions with 
no endowment or with an endowment of less than $50,000,000 in current 
value. This is vital for most minority institutions. Most MSIs have 
small endowments and many have no endowments at all. Without a waiver 
of this provision, they would be effectively foreclosed from taking 
advantage of the funding opportunities provided for in this bill. I 
urge you to keep this provision.
    I am very much encouraged by the Senate's recognition of the need 
for Minority-Serving Institutions to expand their digital and wireless 
network capabilities and that policy makers are considering a bill that 
addresses this need directly. I applaud the leadership of Senators 
Allen, Chairman McCain and the many co-sponsors of this critically 
important bill.
Overview
    The Hispanic Association of Colleges and Universities (HACU) 
represents more than 340 colleges and universities in the United 
States, including more than 200 Hispanic-Serving Institutions, or 
HSIs--including Herbert H. Lehman College of the University, City of 
New York. HACU-member institutions collectively enroll more than two-
thirds of the 1.6 million Hispanics in higher education today, as well 
as countless non-Hispanics who enrich the diversity of their fast-
growing campus communities.
    S. 196 will directly address the widening Information Technology 
divide in American higher education by targeting urgently needed new 
funds directly to HSIs and other Minority-Serving Institutions. New 
national security priorities and a fast-changing global economy now 
demanding a more highly educated workforce requires the expedient 
elimination of the digital divide between minority and non-minority 
populations in our country, particularly on our college campuses. 
Underscoring this national imperative is our country's rapidly changing 
demographics, overwhelmingly impacted by Hispanic American communities 
representing the nation's youngest, largest and still fastest-growing 
ethnic population. S. 196 directly addresses this challenge.
Infrastructure, Equipment and Capabilities
    S. 196 would provide $250 million in National Science Foundation 
grants in each year over a five-year period to Hispanic-Serving 
Institutions (HSIs) and other Minority-Serving Institutions to 
substantially enhance their technology infrastructure, programs and 
training to bridge the digital divide. That S. 196 specifically 
identifies Minority-Serving Institutions as eligible recipients of S. 
196 funding is testament to the intent of this Act to reap the greatest 
benefits for each dollar invested in those institutions with the 
strongest expertise and widest reach to the ``have-nots'' of the 
digital divides.
    An over-riding goal of HACU and HSIs is to increase the numbers of 
Hispanic college graduates with advanced skills in every discipline in 
which Hispanics now are under-represented. S. 196 promises not only to 
narrow the technology training gap, but also to ultimately increase 
college completion rates overall by providing Minority-Serving 
Institutions the tools they need to enhance pre-collegiate and on-
campus student success.
    HSIs receive less federal funding on average per student compared 
to all other degree-granting institutions. Because of the persistent 
per-student funding disparities suffered by HSIs, these institutions--
and the students, future K-12 teachers and larger communities served by 
these HSIs--clearly stand to benefit from S. 196 investments in 
infrastructure, equipment and capabilities.
    Most HSIs are located in major, urban areas of the country with a 
comparatively higher concentration of poverty and subsequently lower 
average tax base. Thus, these HSIs cannot depend on local dollars to 
adequately address the digital divide. Moreover, state support for 
higher education has been declining on a per-student basis in almost 
every region of the country.
    Because the mission of these HSIs is to promote higher education 
access to a population that suffers historically high poverty rates, 
most HSIs have declined to increase their tuition and fee formulas. 
HSIs are thus compelled to rely on the few federal resources now 
available to them. S. 196 provides HSIs and other Minority-Serving 
Institutions a much-needed increase in federal dollars.
Faculty Development
    S. 196 will allow HSIs and other Minority-Serving Institutions to 
seek grants, contracts or cooperative agreements to ``develop and 
provide educational services, including faculty development, to prepare 
students or faculty seeking a degree or certificate that is approved by 
the state, or a regional accrediting body recognized by the Secretary 
of Education.''
    Increasing the ranks of Hispanic and other minority teachers is of 
paramount importance, not only to higher education institutions but 
also to the nation's public schools. HSIs already award approximately 
50 percent of all teacher education degrees earned by Hispanic higher 
education students.
    However, because of a lack of funding for teacher education at 
HSIs, the shortage of Hispanic teachers is acute. While 14 percent of 
the elementary and secondary education student population is Hispanic, 
only 4.3 percent of public school teachers are Hispanic, according to 
the U.S. Census Bureau Digest of Education Statistics for 1998 and 
1999. In higher education, only 2.4 percent of all full-time faculty 
members are Hispanic (IPEDS, 1997).
    Hispanics now earn master's, doctoral and professional degrees at 
the rate of 2.4 percent among the adult population--compared to 6.0 
percent for non-Hispanics. Hence, the numbers of Hispanics attaining 
advanced degrees must more than double to achieve parity. Yet, only 20 
percent of HSIs offer a master's degree. Less than 12 percent of HSIs 
offer a doctoral degree. S. 196 directly addresses the need to increase 
the capabilities of HSIs to produce more teachers with advanced 
degrees.
Technology in the Classroom
    S. 196 will allow HSIs and other Minority-Serving Institutions to 
seek grants, contracts or cooperative agreements to ``provide teacher 
education, library and media specialist training and preschool and 
teacher aid certification to individuals who seek to acquire or enhance 
technology skills in order to use technology in the classroom or 
instructional process.''
    Enhancing teacher education, classroom technology use and 
instructional skills will focus on expanding the only means of 
technology access for many of the youngest of the ``have-nots'' of the 
digital divide. A survey on computer access released September 5, 2001, 
by the U.S. Census Bureau reports that while only 33.7 percent of 
Hispanic households own a computer, 70 percent of the nation's Hispanic 
students have computer access at school.
    The long experience and proven expertise of HSIs in addressing 
minority public school and community needs makes these institutions a 
vital partner in efforts to enhance teacher technology training, 
classroom and instructional skills. S. 196 capitalizes on the 
geographic proximity, crosscultural understanding and existing 
community outreach of Minority-Serving Institutions by inviting their 
active participation in new technology initiatives in the nation's 
public schools.
Technology Partnerships
    S. 196 will allow HSIs and other Minority-Serving Institutions to 
seek grants, contracts or cooperative agreements to ``implement a joint 
project to provide education regarding technology in the classroom with 
a state or state educational agency, local education agency, community-
based organization, national nonprofit organization, or business, 
including minority business or a business located in HUB zones, as 
defined by the Small Business Administration.''
    Joint projects and partnerships to comprehensively address 
classroom technology needs are a practical, effective means to meet the 
technology needs of the nation's larger minority communities. This 
component of S. 196 encourages inclusiveness and the establishment of a 
wide base of community support and expertise.
    HSIs, historically hampered by funding disparities, have come to 
depend on the combined strengths and added resources of such 
partnerships to successfully address issues ranging from adult 
workforce development and lifelong learning to pre-collegiate 
preparatory programs.
    HSIs and other Minority-Serving Institutions already have 
established the foundation for forming effective partnerships to 
address technology disparities. S. 196 provides the funding and 
infrastructure support to capitalizes on the proven effectiveness of 
such partnership approaches in addressing the digital divide.
Leadership Development
    S. 196 also will allow HSIs and other Minority-Serving Institutions 
to ``provide leadership development to administrators, board members 
and faculty of eligible institutions with institutional responsibility 
for technology education.'' Historically under-funded HSIs can readily 
benefit from this investment in support of those leaders who are 
charged with the strategic direction and supervision of efforts to 
enhance technology infrastructure, training and outreach.
    HSIs and other Minority-Serving Institutions recognize the critical 
role of leadership development in efforts to close the digital divide. 
For example, the Advanced Networking with Minority-Serving Institutions 
(AN-MSI) project includes a focus on assisting campus leadership in 
information technology training. AN-MSI is the result of a National 
Science Foundation grant to EDUCAUSE, a consolidation of the former 
CAUSE and Educom higher educational technology associations. A sub-
award was made to the Education, Outreach and training Partnerships for 
Advanced Computational Infrastructure (EOT-PACI).
    EDUCAUSE established partnerships with HACU, the American Indian 
Higher Education Consortium and other associations and councils 
representing Minority-Serving Institutions. Leadership development 
aspects of this ongoing project have included the involvement of 
Administrators of HSIs and other Minority-Serving Institutions at 
Seminars on Academic Computing and a recent Technology Summit.
    The inclusion of leadership development in S. 196 is another 
example of the Act's potential for success by strategically addressing 
the nation's digital divide on so many fronts--from enhancing teacher 
skills in the classroom to supporting administrative leadership 
development on the college campus.
Conclusion
    Clearly, HSIs and other Minority-Serving Institutions have the 
expertise, proximity and commitment to their students and communities 
to provide front-line leadership and support in the effort to close the 
information technology gap. However, these institutions cannot succeed 
without the support of Congress and its endorsement of a substantial 
investment in federal dollars.
    S. 196 proposes a comprehensive approach to aggressively address 
the digital divide, targeting potential funding to those higher 
education institutions serving the largest concentrations of minority 
higher education students in those communities with the fastest-growing 
minority populations. S. 196 is a strategically sound, cost-effective 
response to a challenge the nation can no longer afford to leave 
unanswered.
    The digital divide is not an empty buzzword, but an unfortunate 
reality in our nation. While all sectors of society are acquiring 
greater access to information technology and connectivity to the 
Internet, the gap between the better educated and those behind them is 
widening each year--not only in qualitative terms, but quantifiably as 
well.
    The U.S. Department of Commerce series of reports--``Falling 
Through the Net,'' released in 2000, and ``A Nation Online: How 
Americans Are Expanding Their Use of the Internet,'' released in 2001--
document the divide between Hispanics and non-Hispanic whites and the 
nation as a whole. The 2000 report, the last reporting on household 
Information Technology (IT) use, tells us that more than one half of 
U.S. households have computers and more than four of every ten have 
Internet access. For Hispanic households, the numbers are only one-
third and about two of every ten, respectively.
    This same report documents that in 2000, Hispanics made almost 27 
percent less individual use of the Internet than non-Hispanic whites. 
In the latest 2001 report, the gap grew to more than 28 percent. While 
computer and Internet access is slowly increasing for Hispanics, the 
digital divide between them and the rest of the nation's population is 
becoming wider.
    Examining individual Internet use by age groups enables us to look 
at the traditional college-age population. In the 2000 report, 
Hispanics were 32.6 percentage points behind their non-Hispanic white 
counterparts (65 percent). The 2001 report, focusing on 18-24 year-olds 
actually in school or college, documents that Hispanics are about 20 
percent less likely than non-Hispanic whites to have a home computer 
and almost 25 percent less likely to use the Internet at home.
    This reports highlights the critical importance of this bill and 
the urgency of supporting our HSIs, because the gap between Hispanics 
and non-Hispanic whites lessens to 15 percent when one considers 
outside home use, which for these students overwhelmingly means school 
or college. The 15 percent gap is still large, but it is a sign of 
progress in the right direction. Similar patterns exist for Hispanics 
ages 3 to 17 years. The 2000 report shows substantially large gaps 
between non-Hispanic whites and Hispanics overall. The latest 2001 
report underlines that Congressional action is necessary to bridge the 
widening digital divide for our youth by increasing their access to 
technology in the school setting.
    HSIs are the most important national resource for the education and 
training of Hispanics and other disadvantaged students across the 
nation. This fact will only be magnified in the years ahead as the 
Hispanic population continues to grow faster than any other ethnic 
community in the country and reaffirms its crucial role in the economic 
and public life of the nation. Already, Hispanics make up the fastest-
growing segment of the college-age population in this country. HSIs 
must be strengthened and expanded proportionate to the rapid growth of 
the populations they serve, so that our national economic prosperity 
and social structures are also strengthened. One of every three new 
workers joining the national work force today is Hispanic, and this 
will increase to one of every two workers before the year 2050, 
according to projections by the U.S. Department of Labor.
    The changing nature of our economy demands that underserved and 
underrepresented but fast-growing populations be educated and trained 
at increasingly higher levels for the jobs and leadership roles of the 
``new economy.'' Notwithstanding the recent bursting of the dot-com 
bubble, the high-technology sector continues to expand at the speed of 
human creativity. Thus, information technologies, telecommunications, 
and biotechnology, among others, require increasing numbers of workers 
with very high skills and advanced knowledge that only a quality higher 
education can provide.
    S. 196 presents great opportunities for the U.S. Congress and the 
President to ensure that future generations of Hispanics and other 
disadvantaged populations do not remain stagnated at the bottom of 
America's educational ladder. We urge Distinguished Members of this 
Committee to support S. 196. Too much is at stake for our economy and 
for our national security to ignore this critical opportunity to 
provide our colleges and universities the tools they need to begin 
closing the digital divide.

    Senator Allen. Thank you, Dr. Fernandez, for your 
insightful testimony and also your written testimony, as well.
    Now I would like to hear from our good friend, Congressman 
Flake.

    STATEMENT OF DR. FLOYD H. FLAKE, PRESIDENT, WILBERFORCE 
                           UNIVERSITY

    Dr. Flake. Thank you very much. Thank you, Senator. Thank 
you for the invitation to come and to have this opportunity to 
speak on this particular issue.
    Before beginning, I would like unanimous consent to 
introduce to the record the testimony of William H. Gray, III, 
our former colleague and former Whip of the House, who--it is 
submitted on behalf of the United Negro College Fund and 
inclusive of his testimony on S. 414. And for the record, if 
you will receive that, I would be happy to present it.
    Senator Allen. That will be made part of the record. Thank 
you.
    Dr. Flake. Thank you.
    [The information referred to follows:]

  Prepared Statement of William H. Gray, III, President and CEO, UNCF
    Mr. Chairman, and Members of the Subcommittee, I am William H. 
Gray, President and Chief Executive Officer of the United Negro College 
Fund (UNCF). UNCF is America's oldest and most successful African 
American higher education assistance organization.
    I am pleased to join my colleagues--representing the other minority 
higher education associations--to present UNCF's views and 
recommendations for S. 414, ``the NTIA Digital Network Program Act.'' I 
want to thank Chairman Hollings for allowing this hearing to take 
place, and for his strong support of S. 414. Chairman Hollings is very 
familiar with the needs and challenges faced by South Carolina's eight 
HBCUs, four of which are UNCF member institutions.
    Let me also commend Chairman Wyden for calling this hearing so that 
we could have the chance to address one of the most critical issues 
affecting the education of minority students in America. I want to also 
thank our home Senator, Senator George Allen, who as Governor helped 
move Virginia into the high tech era, and who represents the state 
where UNCF's national headquarters is located.
    Finally, I want to applaud the leadership that Senators Cleland and 
Stevens have given to this important issue. We at UNCF believe that 
providing public and private sector support for the acquisition of 
technology infrastructure, faculty development, training and the 
integration of technology into the curriculum are among the most 
important challenges facing private HBCUs. We are especially indebted 
to Senator Cleland for his willingness to listen to the concerns of 
UNCF's member institutions, including those in the Atlanta University 
Center (AUC).
    While we have not yet conquered the chasm that separates the 
college aspirations and opportunities for all of America's minority 
youth from their majority counterparts--we are faced with a 
simultaneous and equally daunting challenge. The ``digital divide'' 
threatens to deny minority students, our professors, and our 
institutions the competitive skills they need to overcome the remaining 
vestiges imposed by race and economic segregation in America.
    The Department of Commerce's July 1999 report ``Falling Through the 
Net--A Report on the Telecommunications and Information Technology Gap 
in America'' first highlighted the economic and racial divide in the 
access of Americans to telephones, computers and the Internet. As then 
Secretary of Commerce Daley pointed out ``(E)nsuring access to the 
fundamental tools of the digital economy is one of the most significant 
investments our nation can make.'' As important as these tools are at 
home and in our elementary and secondary schools, America's colleges 
and universities represent the last bulwark of the nation's defense 
against technological illiteracy. We can ill-afford to produce college 
graduates who enter the workforce without mastering basic computer 
skills and understanding how information technology applies to their 
work or profession.
    Let me describe the two areas that I hope the Members of this 
Committee, and the United States Senate as a whole, will consider as 
they deliberate this legislation.
The Need for Enactment of S. 414
    First, UNCF member institutions and other HBCUs enroll large 
numbers of poor students, whose parents are unable to help pay college 
costs. In fact, 50 percent of all UNCF students come from families with 
incomes less than $35,000. Almost 90 percent of all UNCF students 
receive some form of federal financial assistance, and 60 percent of 
UNCF students are first-generation college students. It is clear, then, 
that the confluence of these demographic factors make virtually certain 
that many UNCF students will have their first exposure to computers and 
to the Internet when they arrive on the college campus.
    Second, for many institutions that enroll large numbers of 
minorities, making up the digital deficits at home and at school 
constitutes a real financial challenge. The inability of institutions 
to finance the acquisition of needed technology infrastructure creates 
another digital divide. Compared to other colleges, private Black 
Colleges have very small endowments and cannot fall back on sizeable 
numbers of wealthy alumni. The average endowment of UNCF schools for 
the 1998-1999 academic year was $22.229 million. Larger, well-financed 
institutions have greater access to the funding necessary to purchase 
technology, than do smaller, private colleges with fewer resources.
    HBCUs, then, face a dual digital challenge--they enroll a large 
number of students who are admitted to college with the least pre-
enrollment exposure and knowledge of technology and the Internet, and 
the institutions that admit them face certain financial challenges in 
overcoming these digital deficits.
    UNCF schools illustrate the challenges we face as a nation. In 
August 2000, UNCF's testimony to the Web-based Commission, which I 
submit for the record, called attention to the plight of our students 
and member colleges:

 <bullet>   Only 15 percent of the 55,000 students attending UNCF 
        member colleges and universities own computers;

 <bullet>   College students nationally were more than twice as likely 
        to have access to a college-owned computer than their private, 
        HBCU counterparts--one computer for every 2.6 students in 
        higher education institutions nationally compared to one for 
        every 6 students at UNCF colleges and universities;

 <bullet>   Seventy-one percent of faculty nationwide owned computers 
        as compared to less than one-half of UNCF faculty;

 <bullet>   The number of network servers at UNCF colleges per 1,000 
        students is approximately one-half that of all colleges and 
        universities nationally;

 <bullet>   Seventy-five percent of these servers, hubs, routers, and 
        printers were obsolete or nearly obsolete and in need of 
        replacement; and

 <bullet>    The rural and relatively isolated areas, in which many of 
        these institutions are located, place an additional Internet 
        access burden on those institutions.

    Let me describe what UNCF has done to help meet this challenge.
UNCF is Addressing the Digital Challenge
    In January 2000, UNCF announced a partnership with Microsoft, IBM, 
AT&T and other major corporations and launched an $80 million 
Technology Enhancement Capital Campaign (TECC). The campaign was 
designed to strengthen the technological capacity of each of the 39 
member colleges and universities in three significant ways.
    First, TECC strengthened the technology capacity through 
modernizing each institution's technology platform and gave every 
student and faculty member access to computers. As a result of this 
campaign, all UNCF colleges and universities meet certain minimum 
technology standards, including increased network capacity and uniform 
systems that enable electronic learning among institutions. Technical 
support was given so that all wiring, equipment installation, and data 
migration and configuration of hardware--including system testing--has 
been properly accomplished. This created equity in opportunity by 
making the same technology available to students attending UNCF member 
colleges and universities as is now available to students at majority 
institutions.
    Second, on-campus training is being provided to a core group of 
campus officials who will then train others in the operation of all 
equipment. TECC also includes a faculty development component to assist 
faculty in integrating information technology into the curriculum and 
to assist faculty members in strengthening their research and 
instructional techniques using technology.
    Third, TECC is helping make technology more affordable for 
individual students and faculty. HBCU students, faculty, and staff can 
purchase computer hardware and software from major technology 
providers, such as Dell, IBM, Hewlett Packard and Microsoft, at 
discounted prices--as low as three hundred dollars--along with low-cost 
financing through UNCF's e-commerce web site, which was developed 
through a generous contribution of technical services from Electronic 
Data Services (EDS).
    I am pleased to inform the Members of this Subcommittee that UNCF's 
TECC campaign is closing the digital divide on UNCF campuses. We have 
already exceeded our $80 million TECC campaign goal! Here are a few 
examples of the campus-based results of the TECC campaign:

 <bullet>   In Florida, where we have three member colleges--Bethune-
        Cookman College, Edward Waters College, and Florida Memorial 
        College--UNCF provided $4,971,583 in technology funds. One 
        example of the use of the funds is that Bethune-Cookman 
        established a quality infrastructure for storage and 
        distribution of applications and data.

 <bullet>   In North Carolina, there are six member colleges and 
        universities--Johnson C. Smith University, Shaw University, St. 
        Augustine's College, Barber Scotia College, Bennett College and 
        Livingstone College. Here we have invested $10,858,475 in 
        technology. With its portion of the funds, Johnson C. Smith 
        University developed a print solution and a robust e-mail 
        system.

 <bullet>   In Georgia, we have six UNCF colleges and universities--
        Clark Atlanta University, Inter-denominational Theological 
        Center, Morehouse College, Morris Brown College, Spelman 
        College and Paine College. The total invested is $15,155,069. 
        At Clark Atlanta University, computer lab capability and access 
        were enhanced, with improved security.

 <bullet>   In Virginia, there are two member institutions--St. Paul's 
        College and Virginia Union University, where UNCF funded 
        $1,983,539 in technology. As an example, Virginia Union 
        University established a totally wireless campus and created 
        mathematics computer labs for classroom teaching and accounting 
        computer labs for teaching and student exercises.

 <bullet>   In Mississippi, there are two UNCF institutions--Tougaloo 
        College and Rust College--that received a technology investment 
        totaling $2,782,911. Tougaloo College wired the campus 
        buildings and upgraded desktops from outdated models for 
        faculty, staff and computer labs.

 <bullet>   In Texas, we have four member colleges--Paul Quinn College, 
        Huston-Tillotson College, Jarvis Christian College and Wiley 
        College. These institutions received from UNCF $3,967,664. With 
        their share of the technology funds, Paul Quinn College 
        provided laptops to all full-time faculty and network drops for 
        faculty to use in the classrooms.

    In addition, all 39 UNCF campuses have benefited from upgraded 
network infrastructures and increased access to technology for 
students, faculty and staff:

 <bullet>   UNCF institutions have received hardware, including 2,000 
        desktop computers, almost 1,500 network printers and more than 
        1,200 network servers, as well as hundreds of hubs, switches 
        and network routers, courtesy of Hewlett Packard, Cisco, 
        Lexmark, and Dell;

 <bullet>   The wiring of member institution campuses is completed--
        including over 3,800 network drops in learning centers and 
        administrative and academic facilities and equipment 
        installation and configuration; and

 <bullet>   Each UNCF member institution received 96,000 current 
        versions of Microsoft software, including Windows 2000, Encarta 
        Reference Suite 2000, Microsoft Office Suite 2000, and Encarta 
        Africana 2000 courtesy of an ``in-kind'' gift from Microsoft.

    For the record, Mr. Chairman, I am submitting the list of these 
contributors.
    Our goal is to ensure that every student has a computer and knows 
how to use it and that every faculty member has a computer and has 
integrated technology into their curriculum. The results will be better 
prepared students ready for the technology age.
    Notwithstanding this progress to date, there is a great deal more 
to be done to eliminate the digital divide.
The Federal Role in Closing the Digital Divide
    Technology is no longer the wave of the future--it is the way of 
the present. Every student who lacks access to current technology risks 
falling further behind. We believe S. 414, and its companion House 
bill, H.R. 1034, provide a crucial and necessary vehicle for directing 
federal resources to the solution of an urgent problem.
    S. 414 provides direct grants to eligible institutions, or 
consortia of eligible institutions: (1) to acquire hardware and 
software; (2) to build technology infrastructure, i.e. wiring, 
platforms and networks; and (3) to train institutional personnel to use 
both the software and hardware and to plan for the future use of 
technology. Based on UNCF's TECC campaign experience--what our 
institutions need more than anything is the funding to purchase the 
instrumentation and to prepare students and institutional personnel for 
its usage. S. 414 will help provide those resources.
    S. 414 encourages partnerships with the private sector, while 
avoiding the creation of a barrier to institutional progress. UNCF has 
experienced great success in securing private sector participation in 
our TECC campaign. Major corporate donors have stepped up to the 
plate--contributing both cash and in-kind gifts. However, experience 
tells us the response has not been and will not be uniform. Therefore, 
we applaud S. 414's recognition of the need to waive the ``matching'' 
requirement for certain institutions. UNCF also commends the bill 
provisions that qualify private sector contributions made through 
organizations like UNCF to individual institutions as ``matching'' 
funds.
    Finally, we urge the Committee to ensure, to the maximum extent 
possible, the equitable distribution of appropriated funds to the range 
of eligible institutions that will participate in the program. UNCF is 
available to assist you, Mr. Chairman, and Members of the Committee as 
you proceed with consideration of the bill.
    Again, I want to thank the Subcommittee for inviting me to testify 
today, and to present the views of UNCF on this important legislation. 
I would be pleased to answer any questions you may have.

    Dr. Flake. Thanks again for your consideration not only for 
an opportunity to speak, but the reality of understanding this 
critical need and the problem that we are facing. This 
afternoon, we realize that this is a pressing need for most 
Historically Black Colleges, Indian universities, as well as 
Hispanic universities as they struggle to try to be competitive 
with others.
    I certainly want to thank you and others for providing 
leadership on this agenda and the for the persons that you have 
been able to include in the process, understanding that the 
majority of them are in positions to make sure that this bill 
passes.
    Today's subject is not only a problem facing students, 
faculty, and administrators of the nation's Minority Serving 
Institutions. Technology deficits and limitations today are 
nothing, if not a harbinger, of the national crisis in 
education and commerce tomorrow. What is described by some as a 
digital divide is more like a gaping technological canyon that 
has far-reaching implications for communities across the 
nation. If this chasm is not closed, the nation will suffer 
untold consequences. Ultimately, our nation's competitiveness 
will be undermined.
    Mr. Chairman, in ways technology and its availability on 
the nation's college campuses are Dickensian, ``Tale of Two 
Cities,'' or rather the ``Tale of Two Campuses.''
    On some college campuses, technology is available at every 
turn--wired buildings, equipped research laboratories, small 
buildings, ``smart'' buildings, online registration, distance 
learning, ``smart'' cards, ``smart'' boards, and so many other 
tools of tomorrow that are functioning today.
    On these campuses, students are able to communicate 
internally and externally with seamless ease and functionality. 
The world has really become a classroom for these students. The 
facilities are able to utilize technology and research projects 
that significantly accrue to the benefit of students, to the 
academic programs, and this privileged class of universities in 
general.
    Even at an administrative level, these universities are 
better able to direct, attract resources, to report to the 
Federal Government, and to philanthropic donors. All of these 
accumulated advantages mount up like a limitless advantage for 
some, and an insurmountable disadvantage for others who are 
less prepared for modern collegiate needs.
    On other campuses, those on the other side of the 
technology canyon, particularly those serving minorities, there 
is an embarrassment of technological poverty. To borrow again 
from Dickens, ``these are the worst of technological times'' 
for some campuses and their students; they are also the worst 
of times because technological tools are nominally available to 
everyone. In reality, students whose families often represent 
the proverbial ``least of these'' still find these tools out of 
their reach, even on college campuses.
    S. 196 will immediately level the playing field for more 
American students and close this great canyon. It will allow 
more of the innate talent of students to shine without 
limitation as to where they matriculate or without respect to 
their socioeconomic settings of the home communities.
    Indulge me for a moment as I describe the typical student 
at Wilberforce University. Over 95 percent of the students at 
Wilberforce are on financial aid. An overwhelming majority of 
Wilberforce University students are the first in their family 
to go to college. Students at Wilberforce are more likely to 
have attended urban high schools where the breadth and depth of 
the technological canyon are widest and deepest at the 
secondary level. They are unlikely to come from a home that 
possesses a computer or is connected to the Internet. Likewise, 
they come from communities that are also technologically 
underserved and under-invested.
    What does this mean in practical terms? It means that, at 
every turn, at Wilberforce, despite our enormous success and 
our long history at placing students in competitive graduate 
programs and in viable professional settings upon graduation, 
we are constantly swimming upstream against the current of 
mitigating technological realities that could be overcome with 
significant infusions of capital in areas of technology.
    It also means that there are multiple layers of 
complexities to this problem. At the University of 
Pennsylvania, for example, Taylor Hamilton, a second-semester 
freshman from Los Angeles, majors in business management 
studies in a new academic building that was recently completed, 
to the tune of $140 million. In this facility, every study 
room, every inch of the building, contemplates a wired, 
connected student existence. Taylor is only limited by his 
ability to imagine and to realize his own potential.
    At the same time, Taylor has access to the best that money 
can buy, James Parker, a freshman at Wilberforce from North 
Philadelphia, majoring in business administration, with a 3.74 
grade-point average, in his second semester, with the same 
research needs, the same desire to succeed as Taylor, is 
limited, despite the fact that he is the first person in his 
family to attend college.
    Taylor and James are both African-American. But the 
technological realities confronting them are markedly 
different, solely based upon where they chose to attend 
college. The difference is that James' limitations are beyond 
his control and even beyond the ability of a small liberal arts 
college with a small endowment. Therefore, the exemption is a 
vital necessity for students like James.
    James is not limited by his industry, his drive, or desire; 
rather, he is short-circuited by routers and servers and 
bandwidth forced to operate beyond their capacity. He is held 
in the technological past by antiquated software and hardware.
    Grants that take into consideration the development of 
students, faculty, creative collaborative projects that enrich 
educational experiences and that modernize the enterprise 
functions of Minority Serving Institutions will go a great 
length toward increasing our national competitiveness by 
enabling needy students like James Parker, not only James 
Parker, but those diamonds in the rough-the Jane Morgans, the 
Joy Kirks, and thousands of other students who are now 
straddling the nation's higher education technology canyon.
    Mr. Chairman and Members of the Committee, the thousands of 
students like James Parker employ you to look favorably upon 
this invaluable measure. I look forward to working with you and 
many of my former colleagues, both here in the Senate and on 
the House side, in ways that we might assure not only the 
passing of this legislation, but, assuming that it does pass, 
assuring that those institutions that have the least are able 
to participate by getting more, and, with that more, to create 
young people who have capability, who are trying to create a 
means by which this canyon is finally filled.
    Wilberforce University could use the resources, because it 
does not currently have wireless. We have antiquated computers 
in every student's room. And as soon as one breaks down, with 
the limited staff and staff capability, we are unable to assure 
that even those computers will continue to function.
    You stated early on that you discovered in your own 
research that the majority of these students do not even own a 
computer of their own. Mr. Chairman, it is vitally important 
that this legislation pass and that it pass now. Tomorrow might 
be too late. And if we continue in the trend that we are going, 
we will still contribute a number of young people to the 
socioeconomic lower ladder or allow them to fall into the 
canyon. It is up to you, to us, and to this Committee to move 
forward in a way that assures that we lose no more of our 
students.
    I thank you for this opportunity and look forward to the 
day when we come back to celebrate the passage of S. 196.
    Thank you very much.
    [The prepared statement of Dr. Flake follows:]

         Prepared Statement of Dr. Floyd H. Flake, President, 
                         Wilberforce University
    Mr. Chairman, ranking Member Hollings, Members of the Committee, I 
wish to thank you for the opportunity to address the Commerce Committee 
this afternoon on one of the pressing issues facing Historically Black 
Colleges and universities (HBCU's) today. I wish to extend my deep and 
abiding thanks to you and to Senator George Allen for your leadership 
on this issue in the Senate.
    Today's subject is not only a problem facing students, faculty, and 
administrators at the nation's Minority Serving Institutions (MSI's). 
Technology deficits and limitations today are nothing if not a 
harbinger of a national crisis in education and commerce tomorrow. What 
is described by some as a digital divide is more like a gaping 
technological canyon that has far-reaching implications for communities 
across the nation. If this chasm is not closed, the nation will suffer 
in untold ways. Ultimately, our national competitiveness will be 
undermined.
    Mr. Chairman, in many ways, technology and its availability on the 
nation's college campuses are a Dickensian tale of two cities, or 
rather two campuses.
    On some college campuses, technology is available at every turn. 
Wired buildings, equipped research laboratories, smart buildings, 
online registration, distance learning, smart cards, smart boards, and 
so many other tools of tomorrow are functional today.
    On these campuses, students are able to communicate internally and 
externally with seamless ease and functionality. The world has really 
become a classroom for these students. Further, faculties are able to 
utilize technology in research projects that significantly accrue to 
the benefit of students, academic programs, and this privileged class 
of universities in general. Even at an administrative level, these 
universities are better able to direct and track resources and to 
report to the Federal Government and philanthropic donors. All of these 
accumulated advantages mount up like a limitless advantage for some and 
an insurmountable disadvantage for others who are less prepared for 
modern collegiate needs.
    On other campuses, those on the other side of the technology 
canyon, particularly those serving minorities, there is an 
embarrassment of technological poverty.
    To borrow again from Dickens, these are the worst of technological 
times for some campuses and their students. They are the worst of times 
because technological tools are nominally available to everyone. In 
reality, students whose families often represent the proverbial ``least 
of these'' still find these tools out of their reach even on college 
campuses. S. 196 will immediately level the playing field for more 
American students and close this canyon. It will allow more of the 
innate talents of students to shine without limitation as to where they 
matriculate or without respect to the socio-economic settings of their 
home communities.
    Indulge me for a moment as I describe the typical student at 
Wilberforce University.

 <bullet>   Over 95 percent of the students at Wilberforce University 
        are on financial aid.

 <bullet>   An overwhelming majority of Wilberforce University students 
        are the first in their family to go to college.

 <bullet>   Students at Wilberforce are more likely to have attended 
        urban high schools where the breadth and depth of the 
        technological canyon are widest and deepest at the secondary 
        level.

 <bullet>   They are unlikely to come from a home that possesses a 
        computer or is connected to the internet. Likewise, they come 
        from communities that are also technologically underserved and 
        under-invested.

    What does this mean in practical terms? It means that at every 
turn, at Wilberforce, despite our enormous success at placing students 
in competitive graduate programs and in viable professional settings 
upon graduation, we are constantly swimming upstream against a current 
of mitigating technological realities that could be overcome with 
significant infusions of capital in the areas of technology. It also 
means that there are multiple layers and complexities to this problem.
    At the University of Pennsylvania for example, Taylor Hamilton, a 
second semester freshman from Los Angeles, majors in Business 
management, studies in a new academic building that was recently 
completed to the tune of $140 million. In this facility, every study 
room, every inch of the building contemplates a wired and connected 
student existence. Taylor is only limited by his ability to imagine and 
realize his own potential.
    At the same time Taylor has access to the best that money can buy, 
James Parker, a freshman at Wilberforce University from North 
Philadelphia, majoring in Business Administration with a 3.74 grade 
point average in his second semester, with the same research needs, the 
same desire to succeed as Taylor, is limited despite the fact that he 
is the first person in his family to attend college.
    Taylor and James are both African American, but the technological 
realities confronting them are markedly different solely based upon 
where they chose to attend college.
    The difference is that James' limitations are beyond his control 
and even beyond the ability of a small liberal arts college with a 
small endowment.
    James is not limited by his industry, drive, or desire. Rather, he 
is short circuited by routers and servers and bandwidth forced to 
operate beyond their capacity. He is held in the technological past by 
antiquated software and hardware.
    Grants that take into consideration the development of students, 
faculty, creative collaborative projects that enrich educational 
experiences, and that modernize the enterprise functions of Minority 
Serving Institutions will go a great length toward increasing our 
national competitiveness by enabling needy students like James Parker. 
Not only James Parker, but the Diamond Morgans, Joy Kirks, and 
thousands of other students who are now straddling the nation's higher 
education technology canyon.
    Mr. Chairman and Members of the Committee, the thousands of 
students like James Parker implore you to look favorably upon this 
invaluable measure. I look forward to working with you and many of my 
former colleagues in any way that you might desire to ensure that we 
mutually empower the future of deserving students and their communities 
across the nation.

    Senator Allen. Thank you, Dr. Flake, for your very 
compelling testimony, and I look forward to that day and would 
like for you to be there for that bill signing ceremony, all of 
you. Thank you so much.
    Dr. McDemmond?

 STATEMENT OF DR. MARIE V. McDemmond, PRESIDENT, NORFOLK STATE 
                           UNIVERSITY

    Dr. McDemmond. Thank you and good afternoon, Senator Allen. 
You are, indeed, one of Virginia's favorite sons, and we thank 
you for cosponsoring this important legislation.
    My name is Marie McDemmond, and I am in my sixth year as 
president of Norfolk State University. I would like to take you 
on a little background of Norfolk State University and its 
students and to see what we would do with the money, if 
allocated by Congress.
    First of all, Norfolk State University is a comprehensive 
public university of higher education founded in Norfolk, 
Virginia, with 7,000 students. Norfolk State was founded as 
part of Virginia Union University in 1935. And several years 
later, we became a state-supported institution as the lower 
division of Virginia State University in Tidewater. Norfolk 
State did not become its own four-year university granting its 
own four-year degrees until 1969, and became its own university 
in 1979.
    This is very important when you look at the size of Norfolk 
State's endowment, which is only $7 million. If you look at 
that we did not give our own degrees until that time, you can 
see that we would have difficulty in garnishing some of the 
higher paid alumni who are able to influence corporation and 
foundation giving to large endowments at HBCUs.
    In addition, I would like to tell you a little bit about 
Norfolk State's students. Over 89 percent of our students 
receive some form of financial aid. $25,000 is the average 
family income for those students. Norfolk State University has 
worked hard to make sure that our students continue to qualify 
for federal financial aid. We have lowered the default rate 
since I became President, in mid 1997, from 27.1 percent to 6 
percent. We have done so despite all of the borrowing that our 
students have to do. We are the least expensive of Virginia's 
public institutions in tuition, and the second least expensive 
in fees. But still, 80 percent of our students graduate owing 
more than $15,869. This is a very large amount for people with 
the profile that we serve.
    The history of Norfolk State is critical, also. As you 
might remember, the 11 southern states have been reviewed over 
the last 35 years by the U.S. Department of Education to 
determine the historical equity in funding between HBCUs and 
the majority institutions in each of the 11 southern states. 
Virginia was found to be out of compliance in equity for many 
times, and it was not until November 2001 that we signed the 
Office of Civil Rights Accord. That Office of Civil Rights 
Accord noted that Norfolk State University was severely 
delinquent in its computer technology and its computer wiring. 
They authorized, or they asked, Virginia to fund about $4 
million in computer wiring to bring Norfolk State University up 
to par just on the academic side of its house in technology. 
Only 1 million of that 4 million, since 2001, has been able to 
be funded by the Commonwealth. So already we were inequitable 
in what we had as computer funding, and even the amount to 
bring us up to equity has not been provided.
    On the side of the house that we have student services, the 
dormitories, none of our dormitories are wired. We do not have 
computers in any students' rooms, and we do not have a general 
computer lab in the dorm. This greatly handicaps our students 
when they come back from class. And with over 50 percent 
working, when they come back, they cannot reinforce their 
academic learning in either technology or do research papers 
using the Internet because lack of wiring in our dormitories.
    Now, what would we do if we are provided the funds through 
S. 196? We have two tremendous initiatives I would like to 
share. One is our research and innovation to support the 
empowerment center. We believe that RISE Center can create a 
network among HBCUs and their respective communities and 
businesses, as Dr. Fernandez stated, to aggregate the economic 
potential emerging from expanded broadband access. The facility 
has the potential to increase business partnerships and to 
expand minority training and management in technology and 
infrastructure.
    We have put together and leveraged almost $100 million to 
build this complex center, which takes advantage of our 
location in a hub zone, an enterprise zone, and an empowerment 
zone, as well as a HOPE 6 community. Our community as well as 
our students at Norfolk State need to be educated on 
technology.
    We also have structured an Institute for Information 
Assurance. Part of the OCR accord that was struck in November 
of 2001 authorized the creation of a masters in computer 
science. One of the tracks in that masters program will be 
information assurance. In recognition of the increasing need to 
protect the nation's critical infrastructures and information 
and information systems, Norfolk State is working hard to make 
this information assurance structure institute become a 
reality.
    We have presented to the National Security Agency, in the 
fall of 2000, a plan to provide us with the goals to become a 
center for information assurance. There are 36 such centers 
throughout the United States in higher education institutions. 
None are at Minority Serving Institutions. Norfolk State wants 
to be the first to do that so that we can address the United 
States' needs for trained information assurance professionals 
by encouraging students, especially those from under-
represented minorities, to pursue degrees in information 
assurance and related fields as well as providing support for 
these students to do so. We want to expand and enrich 
undergraduate curriculum offerings with courses in computer and 
network security, as well. We, at Norfolk State, want to 
position ourselves, therefore, as a leader in information 
assurance research.
    As we go forward to look at all of the issues that Norfolk 
State would do, we know that we have to use the resources of 
this bill to help us do wireless. Wireless is the wave of the 
future. We currently have no wireless environment on our 
campus. We are $4 million behind even in wired technology.
    So we hope that as you proceed to provide these assurances 
for us and to really enable us to get the funding needed for 
this bill, we will be able to add to the national security 
infrastructure of this country, particularly considering our 
location in Norfolk, Virginia.
    [The prepared statement of Dr. McDemmond follows:]

       Prepared Statement by Dr. Marie V. McDemmond, President, 
                        Norfolk State University
Greetings
    Good afternoon, Chairman McCain, Chairman Hollings, one of 
Virginia's favorite Sons--Senator Allen, Senators Miller and Stevens 
and other distinguished Members of this Committee on Commerce, Science 
and Transportation.
Introduction/Background
    My name is Marie V. McDemmond. I am the President of Norfolk State 
University, and I also serve as a member of President Bush's Advisory 
Board on HBCUs, a member of NAFEO's Board of Directors and as 
Virginia's Civilian Aide to the Secretary of the Army.
    NORFOLK STATE UNIVERSITY is a comprehensive public institution of 
higher education in Norfolk, Virginia, and the largest of the five 
Virginia Historically Black Colleges and universities (HBCUs) with 7000 
students. NSU opened its doors in 1935 as the lower division of 
Virginia State University in the Tidewater region of Virginia. Norfolk 
State became its own named college in 1969 and a university in 1979. 
The university has remained steadfast in its commitment to provide an 
affordable, high-quality education to an under-served population in its 
community, its state and the nation.

 <bullet>   The percentage of undergraduate students receiving 
        financial aid at Norfolk State University is 89 percent.

 <bullet>   These students have an average median family household 
        income of less than $25,000.

 <bullet>   Since my presidency of Norfolk State University began in 
        mid-1997, we have worked hard to ensure that our students 
        remain eligible for federal financial aid and, with improved 
        management, have lowered our direct student loan default rate 
        in five years from 27.1 percent to 6.0 percent.

 <bullet>   We have done so despite the increasing number of students 
        who must borrow to fund their education. Eighty percent (80 
        percent) of our graduating seniors had an average debt burden 
        of $15,869 in 2000-2001.

 <bullet>   Norfolk State University's progress is further exemplified 
        by our increases in retention and graduation rates. Changes in 
        our admissions standards have improved our freshmen profile. 
        The outcome of those changes during the previous five years is 
        evident in an increase in the average SAT of 13 percent and an 
        increase in the average high school grade point average of 12 
        percent.

 <bullet>   In five years, our freshmen retention rate has increased 
        from 5 percent to 71 percent, which now is consistent with our 
        national peers. Additionally, graduation rates have increased 
        substantially. Within five years, the freshmen 6-year 
        graduation rate has increased by 7 percent. The increase from 
        20 percent to 27 percent for bachelor degree recipients is only 
        one of several important steps NSU is taking to ensure student 
        success.
Educating Students in Science and Technology
    Norfolk State University currently serves a unique mission in 
educating a significant number of African-American professionals in the 
sciences and in technology.

 <bullet>   Within the last decade, Norfolk State University has 
        increased the number of students enrolled in its computer 
        science programs by 116 percent (from 197 to 425) and increased 
        the number of students enrolled in computer technology by 32 
        percent.

 <bullet>   Norfolk State University was one of the first universities 
        to offer its students in non-technical fields the Virginia 
        Internet-based Tek.Xam technology assessment exam proctored in 
        its on-campus computer laboratories.

 <bullet>   In Fall 2001, NSU added the Skills Assessment Manager (SAM) 
        to enhance our students' proficiency in technology. SAM 2000 is 
        an interactive performance-based software system developed by 
        Course Technology. Students complete the exam online and their 
        scores are generated automatically. The program assesses each 
        student's abilities to ensure that all NSU graduates can use 
        technology to solve problems, collect data, manage information, 
        communicate with others, create effective presentations, and 
        use information to make informed decisions.

 <bullet>   In recent years, the number of student computers in campus 
        labs at NSU has increased from 600 to over 1,400 and all 
        students have e-mail accounts and take computer competency 
        exam. Every full-time faculty member has a desktop computer 
        with Internet access.

 <bullet>   In conjunction with over 100 Northern Virginia firms in 
        Virginia's High Tech Partnership, Norfolk State is 
        significantly increasing the number of minority interns and 
        permanent hires in technology related fields of employment and 
        has placed over 60 students in technology related internships 
        over the past three summers.

 <bullet>   NSU is also providing certifications in CISCO systems 
        technologies and is partnering with the Small Business 
        Administration and Empowerment 2010 to strengthen the business 
        community's capacity to absorb new technology and know-how.

Economic Development Initiatives--Rise
    NORFOLK STATE UNIVERSITY continues to strive to attract new 
businesses to the surrounding community and is formulating plans to 
capture the economic benefits of our location in an Enterprise 
Community, Empowerment Zone, HUBZone and Hope VI Community. A public 
private partnership has been formed to build a two-phased Research and 
Innovation to Support Empowerment (RISE) Center. This center will 
support a complex technology development system within a bridging 
framework. RISE will be a self-sustaining facility that will act to 
spur economic development in the Enterprise Zone, Empowerment Zone, 
HUBZone and Hope VI area surrounding our campus. The Center will 
promote technology development, business formation, educational and 
research opportunities and workforce development. In the second phase 
of development, the RISE project includes a University Laboratory 
School with major educational focus on Science, Mathematics and 
Technology for students K-6. The private sector indicates that the RISE 
Center can create a network among several HBCUs and their respective 
communities and businesses and aggregate the economic potential 
emerging from expanded bandwidth and access. The facility has the 
potential to increase business partnerships and expand minority 
training and management in technology and its infrastructure.
    We have leveraged approximately $100 million in state funding 
through Virginia's recent General Obligation Bond referendum, 
empowerment zone funding, city of Norfolk infrastructure funding and 
private partnership funding to make the RISE Center complex a reality 
within the next two years.
Centers of Excellence--Eternal Funding
    Norfolk State University believes in focusing its energies on its 
academic strengths. To that end we have carved out Centers of 
Excellence. Two of these centers directly relate to the university's 
strengths in math, science and technology: the Bringing Science and 
Education Together Laboratory (B.E.S.T. Lab) and the Center for 
Materials Research.
B.E.S.T. Laboratory
    The B.E.S.T. laboratory operates cooperatively between the School 
of Education and the School of Science and Technology. Projects involve 
fundamental and applied research, integration of technology in 
education, and innovation for curriculum development. Students and 
faculty engage in modeling chemistry, atmospheric science, and science 
education research with state-of-the-art equipment and software. It has 
been proven over and over again that teaching professionals in K-12 
must be truly comfortable teaching math and science concepts before 
they can excel in transferring their knowledge in math and science to 
their students. Using this concept and in partnership with NASA 
Langley's Research Center, NSU has hosted a series of summer pre-
service teaching institutes and national conferences. These programs 
aim at increasing the ability and confidence of current and future 
teachers, who plan to teach at minority serving schools, to teach math 
and science. The pre-service teacher program, funded at almost $3 
million over the past five years has been so successful, that this past 
summer NASA expanded its funding to include NASA Marshall, with Oakwood 
College as the cooperating HBCU, and NASA Stennis, with Xavier 
University of Louisiana as the cooperating institution. It is our 
intention to use these same cooperative concepts in our university's 
proposed laboratory school.
Center for Materials Research
    NSU believes in capitalizing on its internal strengths and 
leveraging external dollars whenever possible. In 1994, NSU received a 
five-year $10 million grant from the Department of Energy and a three-
year $1.2 million grant from NASA Langley to start the Center for 
Materials Research and develop a Masters program in Materials Science. 
The Center for Materials Research, which has received more than $16.4 
million in Federal funding support over the past five years, now 
conducts state-of-the-art research in nanotechnology, polymer network 
switches, organic photovoltaic materials for solar cells, powder laser 
materials for military and security applications, photon materials for 
huge data storage, and other optical or communications applications. 
This NSU Center of Excellence demonstrates, if HBCUs are provided the 
capacity-building resources, we can and will succeed. Since July 1, 
2002, NSU has increased its external funding to its School of Science 
and Technology by adding over $7 million to continuing grants and 
contracts to the $11.5 million the schools already had in external 
funding this year, a 61 percent increase.
Institute for Information Assurance
    In recognition of the increasingly important need to protect the 
nation's critical infrastructures, information, and information 
systems, NORFOLK STATE UNIVERSITY recently established another center 
of excellence, the Institute for Information Assurance (IA) Research. 
NSU has been in discussion with the National Security Agency on this 
since the Fall of 2000. The principal goals of the institute are to:

 <bullet>   Address United States needs for trained information 
        assurance professionals by encouraging students, especially 
        those from under-represented minorities, to pursue degrees in 
        information assurance related areas and by providing support 
        for them to do so;

 <bullet>   Expand and enrich undergraduate curriculum offerings with 
        courses in computer and network security as well as train 
        information technology professionals at an accelerated pace to 
        assure information security; and

 <bullet>   Position Norfolk State University as a leader in 
        information assurance research and education by preparing the 
        University for certification as a National Security Agency 
        Center of Academic Excellence in Information Assurance 
        Education. Presently, there are 36 such centers nationwide, 
        working in this very crucial national security area. None, 
        however, are located at an HBCU.

    By its very nature, information assurance requires countries to 
develop their own talent in this area, a critical issue now considering 
the number of H1-B VISAS personnel currently working in technology 
fields in the United States. With the appropriate financial support, we 
expect this new center to provide substantial benefits in this regard 
to the United States, the Commonwealth of Virginia, and the Hampton 
Roads Region.
Federal Support
    This year after a mandate from the U.S. Department of Education, 
Office of Civil Rights (OCR), an Accord between Virginia and the 
Federal Government was signed in November 2001. Based of the guidelines 
of the Accord, Norfolk State University received enhanced funding from 
the Commonwealth to begin structuring a master's degree, added to our 
ABET accredited bachelors in computer science (a program started many 
years ago through Title III funding); and, currently we are adding both 
bachelors and masters degrees in electronics and optical engineering.
    NSU also received funding from the National Science Foundation for 
the Louis Stokes Alliance for Minority Participation, through the 
Washington, Baltimore, and Hampton Roads AMP. In addition, the 
University receives support from NSF through its Historically Black 
Colleges and Universities Undergraduate Program (HBCU-UP). These 
outstanding National Science Foundation (NSF) programs have produced 
over 200,000 minority professionals with degrees in math, technology 
and the sciences and are worthy of increased NSF funding. Building upon 
its strengths in computer science and electronics and optical 
engineering will help position Norfolk State University to excel in the 
education of African Americans in mathematics, science and technology.
Skilled Workforce
    There is a high demand in the United States today for skilled, 
knowledgeable workers. Our most important businesses and industries are 
not just computer and electronics firms, but also advanced, 
information-driven companies with an educated and diverse workforce, a 
workforce of people who prize their diversity and will be successful 
because of it. However, there is a national shortage of information and 
communication technology professionals, and as minority-serving 
institutions we can educate our own to fill this gap. It is critical 
that our government takes an active role in the installation, 
development and use of information and communication technologies 
across economic as well as geographic lines so that America will have 
its own diverse trained workforce.
    NSU's vision is in place, but funding during these very uncertain 
economic times will remain a critical issue if we are to train and 
educate the workforce needed in this decade and beyond. Over 175,000 
foreign nationals have come to our country in efforts to fill quality, 
high paying jobs in science and technology, mainly because our own 
workforce does not possess the skills and training necessary to fill 
these essential jobs. It is critical to our national interests and to 
the economic stability and security of this nation that we also direct 
our limited resources to provide funding to Minority Serving 
Institutions that already have a record of success in educating our 
minority citizens in science and technology and have an ever-increasing 
student body that is patriotic and eager to learn. Our nation's 
minorities and underserved populations are a vital part of the first 
generation of a new and glorious millennium of growth and development 
for our country--a country that needs everyone's full participation if 
America is to retain its competitive and military strength worldwide.
Unique Challenge
    Minority-serving institutions have a unique challenge in educating 
students with little or no preparation for the work world they are 
about to enter. Many of the tasks we take for granted in the workplace 
today (sending an e-mail or using the Internet) are the by-products of 
years of educational and cultural experience. Each new generation has 
learned how to accomplish these tasks, adapted their skills and made 
their processes better and better. Today we are reorganizing and 
rebuilding business and industry and even whole national economies, and 
in that process we are also redistributing knowledge and the way we 
communicate knowledge.
    Over the course of our nation's history, the view of higher 
education as a central element of our economic and social well-being 
has been widely acknowledged. Thomas Jefferson wrote of this concept 
when he said, `` I think by far the most important bill in our whole 
code is that for the diffusion of knowledge among the people. No other 
sure foundation can be devised for the preservation of freedom and 
happiness.'' Jefferson's world, two hundred years ago, was a vastly 
different place than the world today. However, our increasing 
dependence on knowledge and information continues to recognize the 
importance of Mr. Jefferson's words and acknowledges the importance of 
colleges and universities as the generators of that knowledge and 
information.
Conclusion
    For more than two decades, enrollment at public colleges and 
universities has gradually risen; more than 77 percent of higher 
education is provided in public colleges and universities today. 
Projections for the coming decade show the total climbing further. Much 
of the recent growth has been among historically underserved and under-
represented populations--racial and ethnic minorities, first generation 
college students--many from lower socio-economic backgrounds--who bring 
a number of unique academic and co-curricular needs to our campuses. We 
must educate America's own to fill the high tech jobs of this century. 
The future demands that all institutions have the technological 
resources to prepare these students and that these students have the 
resources to finance their educations.
    This Committee is considering legislation (S. 196)) that would 
provide a pool of funds--$250 million--through the Digital and Wireless 
Network Technology Program Act of 2003--for Minority Serving 
Institutions across the country. As you continue your decision-making 
processes, I ask that you consider how critical these funds will be in 
efforts to strengthen the technology capabilities of minority-serving 
institutions. This legislation must be viewed as an investment and an 
incentive for us all in providing digital capacity for all of the 
communities and the students we serve. The work of your Committees in 
areas such as Title III funding, student financial aid and the 
reauthorization of the Higher Education Act ultimately determines how 
responsive the United States will be to our own future workers and 
leaders. We understand the magnitude of many priorities you face each 
day and appreciate your thoughtful consideration of this important 
legislation here today.
    As the president of a public institution of higher learning and a 
historically black university, I want to ensure that the students we 
serve are ``Achieving with Excellence'' and that each one has the 
opportunity to be as competitively qualified as any other college 
educated student in Virginia and the nation. Minority-serving 
institutions must be assisted in overcoming the challenges facing them 
today so that they can make them the opportunities of tomorrow for all 
Americans regardless of their heritage or socio-economic status.
    I want to thank this Committee along with Senator Allen for all of 
your efforts on behalf of HBCUs and Minority Serving Institutions 
across America. I also want to thank you for having me here with you 
today. The education of our next generation of leaders must be a team 
effort, and we must all be a part of that team.

    Senator Allen. Thank you, Dr. McDemmond.
    Dr. Monette?

 STATEMENT OF DR. GERALD ``CARTY'' MONETTE, PRESIDENT, TURTLE 
                   MOUNTAIN COMMUNITY COLLEGE

    Dr. Monette. Thank you, Senator Allen and Members of the 
Committee for inviting me to testify today.
    My name is Gerald ``Carty'' Monette, and I am honored to be 
here as spokesperson for the American Indian Higher Education 
Consortium and also as President of Turtle Mountain Community 
College, which is located in North Dakota on the Turtle 
Mountain band of Chippewa Reservation.
    On behalf of this nation's 34 tribal colleges and 
universities, I want to express our strong support for S. 196. 
We commend you, Senator Allen, and other Members of the 
Committee, including Senators Conrad Burns, Byron Dorgan, John 
McCain, and Daniel Inouye, for their commitment to serving 
tribal colleges and other Minority Serving Institutions.
    American Indian tribal colleges are young, geographically 
isolated, and poor. None of our institutions is more than 35 
years old. Most are located on Indian reservations in the Great 
Plains, the Southwest, the Great Lakes, in areas the Federal 
Government defines as ``frontier'' or extremely remote. Three 
of the five poorest counties in America are home to tribal 
colleges, where unemployment rates range from 50 to 75 percent. 
Most tribal colleges receive no state funding, and the Federal 
Government, despite its trust responsibility and treaty 
obligations, does not consider funding of American Indian 
higher education a priority.
    For Fiscal Year 2004, the President's budget, if enacted, 
would actually cut institutional operations for reservation-
based tribal colleges to a level $4 million below the FY-02 
level. That makes us the most poorly funded institutions of 
higher education in the country. Yet each year we provide 
educational opportunity to 30,000 or more American Indian 
students, many of whom have no other access to higher 
education.
    To be sure, America suffers from a serious divide. It is a 
division based largely on income and location, and more often 
than not, tribal colleges are on the wrong side of the divide. 
Tribal colleges are determined to cross the divide, but 
barriers exist.
    Most of our reservations lack basic infrastructure. On most 
reservations, less than 50 percent of homes on reservations 
have telephones, compared to 95 percent nationally.
    Less than 10 percent of American Indian households have 
computers, compared to about 50 percent of white Americans, 
25.5 percent of Hispanics, and 23 percent of African-Americans.
    No more than 8 percent of all American Indian homes have 
access to the Internet.
    Tribal colleges struggle to hire and retain technicians. 
Due to operational funding challenges, annual starting salaries 
for faculty can be as low as $21,000, or at least two times 
below industry averages.
    For adequate Internet-based data and information sharing, 
most universities require at least DS-3 connectivity. Only one 
tribal college currently has funding for DS-3, but, I am proud 
to say, that through a concerted effort of all tribal colleges, 
despite our remoteness and poverty, have achieved broadband 
Internet connectivity for our campuses generally through 
multiple T-1 lines. This is a significant, though often under-
appreciated, achievement, and it is a tremendous change from 
just a few short years ago when some tribal colleges had only 
one computer connected to the Internet through dial-up access.
    Despite the challenges before us, many tribal college 
presidents and faculty believe that technology represents a 
tremendous digital opportunity. Over the past few years, we 
have developed a plan similar to the technology plan you 
developed, Senator Allen, while you were governor of Virginia. 
We call our plan the ``Tribal College Framework for Community 
Technology,'' a framework of strategic partnerships, resources, 
and tools that will help us create locally based economic and 
social opportunities through information technology and use of 
the Internet.
    Today, all tribal colleges are using technology to grow, 
meet our needs, serve our communities, and build a framework of 
opportunity for our children. Some examples that we currently 
are involved in and that we would like to see expanded in the 
bill include a wireless backbone project to provide highspeed 
connectivity to remote institutions and their satellite 
campuses where fiberoptic cables may never be cost effective. 
We are piloting state-of-the-art broadband and wireless 
backbone technology at four tribal colleges, including Turtle 
Mountain Community College.
    Through this innovative and cost-effective effort, our 
colleges are weaving a wireless web of connectivity around our 
reservations, connecting institution sites, tribal offices, and 
K-12 schools to one another and the Internet through a 
highspeed backbone running between the college and existing 
Internet access points of state university systems.
    The American Indian Higher Education Consortium is 
partnering with other Minority Serving Institutions and the 
extensive EDUCAUSE network on the Advanced Networking with 
Minority Serving Institutions, AN-MSI, project. The project is 
designed to improve networking architecture, improve Internet 
connectivity in remote areas served by MSIs, assist college 
presidents and administrators in improving our knowledge of 
technology and improved technical support through 
collaboration.
    Through AN-MSI's limited funding, we have been able to 
achieve incredible results, including the above-mentioned 
wireless project, largely because we have worked to develop a 
strong network of technical expertise within the tribal college 
system and because we leverage this funding to the maximum 
extent possible.
    During the 108th Congress, we will be pleased to work 
yourself and your colleagues to ensure that technological 
opportunities are within our reach. We are particularly 
pleased, Senator Allen, with your legislation, because it would 
house its important program within the National Science 
Foundation.
    And again, we strongly support S. 196. My testimony 
includes a number of discussion points, which I respectfully 
refer to the Committee's staff.
    In closing, I will reiterate that the tribal colleges are 
committed to working with the Congress, the National Science 
Foundation, and others to move forward in a new age of 
discovery and knowledge. At the same time, we would like to 
work with private industry to bring offshore information 
technology jobs home to the United States. We are committed 
revitalizing our communities and America's economy through 
entrepreneurship. We are committed to working with you, Senator 
Allen, to build a bridge of technological opportunity across 
our vast nation.
    Thank you.
    [The prepared statement of Dr. Monette follows:]

 Prepared Statement of Dr. Gerald ``Carty'' Monette, President, Turtle 
                       Mountain Community College
    Mr. Chairman and distinguished Members of the Committee, thank you 
for inviting me to testify today. My name is Dr. Gerald Monette. I am 
honored to be here as spokesperson for the American Indian Higher 
Education Consortium and as President of Turtle Mountain Community 
College, which is located in north-central North Dakota on the Turtle 
Mountain Band of Chippewa Reservation.
    On behalf of this nation's 34 Tribal Colleges and Universities 
(TCUs), I want to express our strong support for S. 196, the Digital 
and Wireless Network Technology Program Act, sponsored by the Honorable 
George Allen (R-VA). We commend Senator Allen and his colleagues on the 
Committee--in particular, Senators Conrad Burns, Byron Dorgan, John 
McCain, and Daniel Inouye--for their commitment to working with tribal 
colleges and universities as we strive for educational excellence and 
equality of access.
    For this afternoon's hearing, I have organized my testimony in 
three parts: (1) brief history of the tribal college movement; (2) 
background on technology in Indian Country and strategies the tribal 
colleges have taken to bring new technological opportunities to our 
people; and (3) legislative recommendations for the Committee's 
consideration.
The Tribal College Movement
    American Indian tribal colleges are young, geographically isolated, 
and poor. None of our institutions is more than 35 years old. Most are 
located on Indian reservations in the Great Plains, Southwest, and 
Great Lakes, in areas the Federal Government defines as `'frontier,'' 
or extremely remote. Three of the five poorest counties in America are 
home to tribal colleges, where unemployment rates range from 50 to 75 
percent. Most tribal colleges receive no state funding and little 
funding from our tribal governments. Our tribes are not the handful of 
wealthy gaming tribes located near major urban areas; rather, they are 
some of the poorest governments in the nation. And the Federal 
Government, despite its trust responsibility and treaty obligations, 
has, over the years, not considered funding of American Indian higher 
education a priority. For Fiscal Year 2004, the President's budget, if 
enacted, would actually cut institutional operations for reservation-
based tribal colleges to a level $4 million below the FY03 level. This 
would result in an appropriation of only about one-half of the 
authorized amount, or little more than $3,500 per full-time Indian 
student. That makes us the most poorly funded institutions of higher 
education in the country.
    Yet, each year we provide educational opportunity to 30,000 or more 
American Indian students, many of whom have no other access to higher 
education. We are increasing retention and attainment rates from Head 
Start to graduate school, strengthening tribal governments, creating 
jobs, developing reservation economies, and bringing the promise of 
technological access to rural America.
Technology in Indian Country: Barriers & Successes Barriers to 
        Technology
    We believe that technology will help tribal colleges and tribal 
communities overcome current inequities and could hold the key to our 
future success. To be sure, this country suffers a serious divide. It 
is a division based largely on income and location. But to tribal 
colleges, information technology represents a tremendous ``digital 
opportunity.''
    Today, information technology is an integral part of teaching, 
learning, and research in higher education. Tribal colleges and other 
Minority Serving Institutions, which are generally the nation's poorest 
and most isolated institutions, have the most to gain--or lose--in this 
new technological revolution. We must, therefore, develop strategies to 
ensure that our institutions have adequate technology infrastructures 
and that our students, faculty, and communities have the capacity to 
use technology to expand their knowledge, improve their daily lives, 
and fully participate in this nation's prosperity.
    Tribal colleges are determined to move forward, and we have made 
remarkable progress, but barriers still exist. Most of our reservations 
lack basic infrastructure, and our colleges lack staff, hardware, and 
software that is taken for granted at most mainstream institutions. For 
example:

 <bullet>   Telephones: Less than 50 percent of homes on reservations 
        have telephones, compared to 95 percent nationally.

 <bullet>   Home Computers: Less than 10 percent of American Indian 
        households have computers, compared to about 50 percent of 
        white Americans, 25.5 percent of Hispanics, and 23 percent of 
        African Americans;

 <bullet>   Home Internet Access: No more than 8 percent of all 
        American Indian homes have access to the Internet;

 <bullet>   Trained Technicians: Tribal colleges struggle to hire and 
        retain technicians. Due to operational funding challenges, 
        annual starting salaries for faculty can be as low as $21,000, 
        or at least two times below industry averages.

 <bullet>   Industry Partnerships: Tribal colleges have not yet 
        established the kind of mutually beneficial relationships with 
        key industries that lead to economic opportunity, relevant 
        academic and training programs, and ultimately, prosperity.

 <bullet>   TCU Connectivity: For adequate Internet-based data and 
        information sharing, most universities require at least DS-3 
        connectivity. Only one tribal college currently has funding for 
        DS-3 or higher, but I am proud to say that through a concerted 
        effort, all tribal colleges, despite our remoteness and 
        poverty, have achieved broadband Internet connectivity for our 
        campuses, generally through multiple T-1 lines. This is a 
        significant, though often underappreciated, achievement, and it 
        is a tremendous change from just a few short years ago, when 
        some tribal colleges had only one computer connected to the 
        Internet through dial-up access!

TCU Successes in Technology
    Despite the challenges before us, many tribal college presidents 
and faculty believe that technology represents a tremendous ``digital 
opportunity.'' Just a few years ago, a group of us stared into the 
growing ``digital divide'' and decided to try to chart a new course. We 
embarked on a journey toward a ``Circle of Prosperity,'' a place where 
tribal traditions and new technologies are woven together to build 
stronger and more sustainable communities.
    Similar to Senator Allen's technology and higher education efforts 
while Governor of Virginia, the tribal colleges developed a dynamic and 
broad-based strategic technology plan to guide our collective efforts. 
We call our plan the ``Tribal College Framework for Community 
Technology,'' a framework of strategic partnerships, resources, and 
tools that will help us create locally based economic and social 
opportunities through information technology and use of the Internet. 
Today, all of the tribal colleges are using technology to grow, meet 
our needs, serve our communities, and build a framework of opportunity 
for our children:
    Wireless Backbone Project: To provide high-speed connectivity to 
remote institutions and their satellite campuses (where fiber optic 
cables may never be cost effective), we are piloting state-of-the-art 
wide-band wireless backbone technology at four tribal colleges, 
including Turtle Mountain Community College. Through this innovative 
and cost-effective effort, the colleges are weaving a wireless web of 
connectivity around our reservations, connecting institution sites, 
tribal offices, and K-12 schools to one another and the Internet 
through a high-speed backbone running between the college and existing 
Internet access points or state university systems. Goals of this new 
technology use are to enable each TCU to acquire and sustain affordable 
high-speed broadband connectivity, and then to build a TCU access grid 
that will weave a common web around all of the colleges and Indian 
Country. At the same time, we will be establishing collaborative 
relationships with people and institutions worldwide.
    Distance Education: Through the Internet and other information 
technology applications, all but five tribal colleges offer technology-
mediated education. An expanding ability to network with other 
colleges, universities, and tribal institutions is enabling the 
colleges to share knowledge beyond reservation boundaries and bring to 
their communities technology and information that can be transferred to 
support community and economic development. For example, Bay Mills 
Community College, located in a refurbished fish plant in Michigan's 
Upper Peninsula, is using technology and distance learning to deliver 
higher education to all 11 tribes in Michigan and to people in 17 other 
states, from Florida to Alaska.
    Virtual Library: Through our virtual library initiative--a 
partnership including AIHEC, the University of Michigan's School of 
Information (see www.communitytechnology.org), IBM, and the W.K. 
Kellogg Foundation--the tribal colleges are beginning to develop an 
Internet-based library designed to enhance the meager library resources 
traditionally available in Indian Country. The virtual library, which 
uses open source software, has been installed at nearly every tribal 
college. Each college has a locally controlled library web site, which: 
(1) provides student and community access to local TCU library and 
curricula resources; and (2) interfaces with a much larger AIHEC 
virtual library data base of commonly-available and licensed resources 
(i.e. national and international education journals).
    Already, the virtual library has made a difference in the 
accreditation status of at least five tribal colleges. Last year, the 
National Science Foundation awarded AIHEC a planning grant to 
collaborate with NSF's National Science, Mathematics, Engineering, and 
Technology Education Digital Library community. Unfortunately, funding 
for the AIHEC virtual library will expire in June 2003. Without 
additional funding, this valuable resource may be forced to shut down.
    AN-MSI: Through a $6 million 4-year grant from the National Science 
Foundation to EDUCAUSE, AIHEC is partnering with other MSIs and the 
extensive EDUCAUSE network on the ``Advanced Networking with Minority 
Serving Institutions'' (AN-MSI) project. (www.anmsi.org) The project is 
designed to improve networking architecture; improve Internet 
connectivity in remote areas served by MSIs; assist college presidents 
and administrators in improving our knowledge of technology; and 
improve technical support through collaboration (i.e. remote technical 
support).
    Through AN-MSI's limited funding, we have been able to achieve 
incredible results, including the above mentioned wireless project, 
largely because we have worked concertedly to develop a strong network 
of technical expertise within the tribal college system and because we 
leverage this funding to the maximum extent possible.
    A number of initiatives are currently underway, including vitally 
important information security support and education projects. However, 
AN-MSI's funding is also set to expire this year. If additional funding 
is not secured for this project, the Federal Government's only cross-
community collaborative technology initiative for Minority Serving 
Institutions will cease to exist.
Legislative Recommendations
    During the 108th Congress, we will be pleased to work with Senator 
Allen and his colleagues to ensure that technological opportunities are 
within our reach. Enactment and funding of S. 196, the Digital and 
Wireless Network Technology Program Act, will represent significant 
steps forward in our efforts to develop and use technology in a manner 
consistent with our missions and tribal communities and, at the same 
time, in a manner that ultimately will advance national--and global--
prosperity and expand the frontiers of knowledge.
    We are particularly pleased that Senator Allen's legislation would 
house its important program within the National Science Foundation, an 
agency committed, in Director Dr. Rita Colwell's words, to ``enabling 
the nation's future through discovery, learning, and innovation.''
    Although we strongly support S. 196, AIHEC would like to raise the 
following discussion points:
    1. Purpose and Activities Supported: To avoid inconsistency and 
confusion in the bill's implementation, we respectfully urge the 
Committee to carefully examine sections 2 and 3 of the bill to ensure 
that the language clearly reflects the sponsors' intent. According to 
section 2, a primary purpose of the bill is to strengthen MSI capacity 
to provide instruction ``in digital and wireless network technologies'' 
However, section 3 could be interpreted to permit funding of virtually 
any educational services, so long as the service is in preparation for 
any degree or certificate in any accredited program. We ask that the 
Committee consider narrowing this section to focus on education and 
training programs in emerging technologies, advanced networking, 
information and communications technology, or capacity building to 
succeed in this type of program of instruction. We would be happy to 
provide written recommendations, if the Committee desires.
    2. ``Indians into Technology'' Program: We urge the Committee to 
consider amending S. 196 to include a provision establishing an 
``Indians into Technology'' program. This proposal is based on a 
similar and highly successful program created by Congress in the mid-
1970s to help address the critical need for medical professionals from 
and working in Native communities. Through the innovative ``Indians 
Into Medicine'' (INMED) program, which began at the University of North 
Dakota-Grand Forks (http://www.med.und.nodak.edu/depts/inmed/), 
American Indian students receive vitally needed educational and 
personal support from elementary through professional school. INMED 
includes summer sessions for students from elementary school through 
college; junior and senior high school bridge programs; a tribal 
college bridge program; summer medical school preparation program for 
college juniors and seniors and recent graduates; and ongoing 
educational and personal support programs for medical and graduate 
school students.
    Because of similarities in demographics and need, a similar 
comprehensive education and support program could significantly impact 
efforts to develop and maintain an American Indian information 
technology workforce.
    Under our proposal, isolated and underfunded American Indian tribal 
colleges could address areas of critical need, including:

 <bullet>   campus information technology infrastructure and science, 
        technology, engineering, and mathematics (STEM) programs;

 <bullet>   educational and personal support for students from 
        elementary through professional school, including summer 
        sessions for students from elementary school through college;

 <bullet>   junior and senior high school bridge programs;

 <bullet>   higher level degree bridge programs;

 <bullet>   summer school preparation programs;

 <bullet>   ongoing educational and personal support programs for 
        students.

    Goals of the program would be to: promote interest, enrichment, and 
exposure to careers in information technology; bolster participants' 
math and science abilities and build self-esteem; prepare college 
students for graduation from information technology degree programs; 
and significantly expand the American Indian IT workforce.
    3. Remote Technical Support: Because the tribal colleges are small, 
underfunded and geographically remote, hiring, training, and retaining 
qualified information technology support staff is very difficult. We 
have very good people at our schools, but often, they need a little 
extra support and guidance. Targeted funding to encourage and sustain 
remote technical support, training cohort programs, and student-based 
IT technical support models such as the University of Wisconsin model 
could be very beneficial to all minority-serving institutions.
    4. Strategic IT Planning: The need for ongoing strategic planning 
is paramount to any major initiative or institution. In this area, with 
technology rapidly evolving and new opportunities becoming available 
from all sectors, strategic planning for coordination and growth is 
essential. Specifically, planning needs to be focused on the unique 
nature and mission of institutions of higher education. Possible models 
include the AIHEC/AN-MSI/ITAA partnership currently underway to provide 
technical assistance to NSF-TCUP grantees. Working closely with experts 
from the tribal college and MSI communities, AIHEC and AN-MSI are 
sponsoring teams that will visit colleges to: (1) document, assess, 
and, if necessary, help improve current networking architecture; (2) 
increase awareness of technology trends and issues among college 
leadership and faculty; and (3) begin or expand the process of 
community-based IT strategic planning. Authorization and funding to 
expand this effort and ensure strategic IT would be a wise investment.
    5. Opportunity Parity: An advantage to the breadth of S. 196's 
language is that tribal colleges and other MSIs can compete for funding 
regardless of where they are on the ``technology spectrum.'' The 
language would appear to allow funding, regardless of whether the 
college is seeking basic connectivity or upgrading an existing system 
to build an access node. As new federally funded programs are 
developed, Congress should bear in mind the degree to which 
institutions vary and strive to make opportunities available to all. An 
institution should not be penalized because it currently lacks basic 
connectivity and e-mail service, but neither should an institution be 
excluded from participation because it made investments early, before 
dedicated funding existed, and now seeks upgrades or replacement for 
aging equipment. All programs must address this fundamental issue of 
``opportunity parity.''
    At the same time, the program should not be available to 
institutions that have crossed the ``divide'' into the mainstream world 
of Internet 2 connectivity, Research 1 status, comfortable endowments, 
and adequate public funding. Federal funding should be targeted at 
institutions that meet the spirit and letter of the law with respect to 
minority-serving status. Under S. 196's current language, virtually any 
institution designated as minority serving, without regard to 
verifiability (except in the case of tribal colleges and universities) 
are eligible to compete in the program authorized in S. 196.
    If the Committee shares Senator Allen's stated desire to ``address 
the technology gap that exists at many Minority Serving Institutions,'' 
the legislation should be amended to exclude Research 1 institutions, 
institutions with significant endowments, institutions that are unable 
to sufficiently verify defined ``minority'' status, and institutions 
with proven track records of successful competition in NSF's more 
complex programs. For example, language could be added that would bar 
applications from institutions with endowments over a certain size, 
institutions with multiple NSF grants, or institutions with NSF grants 
totaling more than a pre-determined dollar amount.
    6. E-rate Eligibility: The federally created E-rate program has 
been tremendously successful in bringing affordable telephone and 
Internet services to the nation's K-12 schools. Just last month, the 
Bureau of Indian Affairs successfully completed connecting all of its 
schools to the Internet, and most, if not all, of these schools receive 
some level of E-rate funding. Currently, the program is not available 
to tribal colleges, despite the extensive work we do with our K-12 
schools. We respectfully request that the Congress consider expanding 
the E-rate program to include tribal colleges.
    In closing, Mr. Chairman, I will reiterate that the tribal colleges 
are committed to working with the National Science Foundation and 
research institutions to move forward into a new age of discovery and 
knowledge. At the same time, we are committed to working with private 
industry to bring offshore jobs home to the United States. We are 
committed to revitalizing our communities and America's economy through 
entrepreneurship. And we are committed to working with Senator Allen to 
build a bridge of technological opportunity across our vast nation. 
Thank you.

    Senator Allen. Thank you, Dr. Monette, and thank each and 
every one of you all for your outstanding testimony.
    There may be questions that others may want to pose to you 
later. I am sure you will be willing to entertain those.
    Let me ask you a few questions here. Overall questions. You 
do not need to all answer unless there is--if one of you all 
answers it well and you all agree, just nod. You do not all 
have to answer it.
    But in the competition for students, a lot of your students 
listened to the testimony. While you are from diverse 
backgrounds, diverse states, diverse from inner cities to wide 
open spaces of the Plains and out West, the competition for 
students--if you are going to get good-quality students who 
want to be in computer sciences and engineering and technology-
related research or instruction science, the various sciences, 
clearly they are going to be going to the schools that have 
some of that infrastructure there, whether it is the professors 
who are, in many cases, a great source for grants, private 
grants. They follow--they are like all-stars that bring whole 
departments of research with them. And the students are going 
to go to those who also have the technology.
    That is why one change from this, versus the previous year, 
previous bill that was introduced--there are several changes, 
but one also was the emphasis on wireless, because that is so 
much a part of the future. And some of you all, if done right, 
will maybe actually leapfrog over those that are still using 
the old wire system. With wireless, obviously we have got to 
get the right spectrum so you can get broadband without 
interference.
    But in the competition for students, do you find that it 
very much makes it more difficult for you to get the best 
students because of the lack of technology infrastructure and 
capabilities at your institutions?
    If somebody had a chance to choose in those fields, and we 
know there is a tremendous demand, and many minorities, even 
from their homes--the testimony of Dr. Monette, I think, is 
borne out, generally agreed by all--if you look at the 
ownership of computers and Internet access in homes as pretty 
much a function of income, but it is borne out also by 
ethnicity or race, as well.
    But do you find it hard to compete for the best students if 
you do not have the infrastructure there at your university? Do 
any of you all want to comment on that?
    Dr. Flake. Certainly. I think it even begins before you get 
to the stage of recruitment. The reality is, if you do not have 
the capability, you cannot even reach the best students. The 
best students are bombarded by computer--by Internet long 
before some of us have an opportunity to be able to access 
them. They have already acquired information during the junior 
and senior years of those students, and they have already begun 
the process of communicating with them, and they do that on a 
regular basis.
    For us, the amount of time that it takes to get up, to get 
that information to a student is probably--they are probably 
two-thirds ahead of us already in the game, so you are playing 
catch-up. So that what you wind up, in many instances--young 
people who want to be at that institution or young people who 
come because they have--all the other institutions have made 
their selections and they were not in that selection process.
    Furthermore, you cannot do the kind of outreach that is 
essential. If you run a continuing education programs like we 
do to do Internet registrations, to do--a means by which you 
are able to assure that those persons who work during the day 
and are able to take continuing education classes, and you do 
not have the ability for them to transmit the information, 
their course work and the like, back to the institution in a 
reasonable amount of time, it works against you.
    I think there are just a lot mitigating factors that makes 
it extremely difficult, starting with the recruiting process, 
and it goes on through the process for the years that that 
student happens to be a part of the population.
    Senator Allen. You all seem to agree with that. How about 
in the recruitment of faculty? Does this have an effect on your 
ability to recruit?
    Dr. McDemmond. Absolutely.
    Senator Allen. Dr. McDemmond?
    Dr. McDemmond. We were just fortunate to get someone to 
head our new masters in computer science program out of the OCR 
accord who just came from the National Security Agency. He is a 
Norfolk State graduate, and that is why he came back to us. But 
to say that we have the facilities that he is even accustomed 
to at NSA would be an understatement. We have nowhere what he 
knows that our students need in order to be educated.
    And that is where it is critical also. It is a vicious 
cycle, because in graduate education, and particularly our 
masters in chemical physics, our masters in optical engineering 
and electronics engineering, and now computer science, it is 
going to be critical for us to keep the level of technology we 
need to make sure we are producing competitively qualified 
students as they finish these programs.
    It is a cycle where we did not have what we were supposed 
to have. These new programs have been given to us, but now we 
do not have the wherewithal to provide the kind of 
infrastructure and the computing and technology systems we 
need, and that is why this bill would help that.
    Senator Allen. Dr. Monette?
    Dr. Monette. Thank you, Senator.
    As I stated, most of the tribal colleges are located in 
very isolated areas. The reason they even came about in the 
first place is because so many of our Indian people did not 
have access to higher education opportunity. And in many cases, 
the tribal college, the tribally-based college, is the only 
option, with or without technology. That is where our people 
need to go to access higher education.
    Isolation, poverty, rural areas, it is tough to recruit 
staff people into these schools anyway. And because operational 
monies are limited, we are unable to pay lucrative salaries 
that would attract high-quality individuals.
    We do have a recommendation for the bill, looking at this 
problem in the long term and trying to find a solution, and 
that is to develop a program--we call it Indians Into 
Technology--similar to a program that exists at the University 
of North Dakota called Indians Into Medicine, the INMED 
program. What we would do here is provide comprehensive 
educational and personnel support for pre-K through college, 
through graduate school, provide support to those individuals, 
hoping that by doing so we would not only stimulate interest in 
technology, but begin to train some of our own people to gain 
this knowledge and to return to our reservation to help our 
people.
    Senator Allen. Yes, Dr. Fernandez?
    Dr. Fernandez. Yes, I would like to comment, particularly 
at the level of graduate education, both in teacher training as 
well as in health professionals. We have lots of hospitals. In 
fact, hospitals are one of the biggest businesses in the 
borough of the Bronx, and thousands of individuals are employed 
in hospitals through continuing education, professional 
development. We are now beginning to offer some of this 
training onsite in the hospitals via distance education. And if 
we could do this--we do this now on our normal wire connection 
over the Internet, but wireless technology capability would 
significantly expand our ability to do that and provide that 
without having those individuals having to travel to our 
campus. If we do it asynchronously, they could also do this on 
their time at their own leisure, rather than having to be stuck 
coming at a particular time.
    As far as teacher training, that is one of our largest 
programs at the graduate level. A lot of the teachers are 
really thirsty for this kind of knowledge, and they would 
welcome the opportunity to not only see it at the college, but 
then go back to the school and be able to utilize it and apply 
it to their own classrooms. And we are looking for funds, and 
we obtained some funds to do this in a number of classrooms, 
but I think if we could expand this significantly, it would 
have, really, an impact on the borough.
    Dr. DeLauder. Yes. Mr. Chairman, I alluded in my remarks to 
the very issue that you had brought forth. Students begin by 
looking at your Web page, because by looking at the Web page 
they learn something about the institution and something about 
the technological advantages and capabilities of the 
institution. We are not at state-of-the-art in Delaware State, 
but we do provide reasonable access to students, in terms of 
use of technology, and so that does give us somewhat of a 
competitive edge. We would like to be even better than we are. 
But it does help, in terms of recruiting students.
    And when they visit your campus, they ask very focused 
questions, and technology is one of the areas where they will 
ask questions, so that if you are lacking in the capability, it 
does make you less competitive in attracting the best and the 
brightest students and attracting the best and brightest 
faculty.
    Senator Allen. Thank you all.
    The point of all this is that to have good professors who 
actually know that you are going to need to the infrastructure, 
they are going to need the training. Not every student's going 
to get into every university or college they want to. But if 
they have that capability and they have the desire, they need 
those tools to compete.
    You have in here, Congressman Flake, words which are 
really--they are almost paraphrasing de Tocqueville, where you 
are talking about Taylor only limited by his ability to imagine 
and realize his own potential. De Tocqueville said something to 
the effect that the only things that have not been done in 
America are those things that we have not tried to do. That 
needs to continue to be the spirit of this country, is that we 
are only limited by our imagination and our own diligence, our 
hard work and ingenuity.
    And so every student who is going on to college to learn, 
it is--education is so important, obviously, to them leading a 
fulfilling life and providing for themselves and their families 
and being responsible citizens. And of course, it helps our 
entire civilization. So all of this is, I think, so important 
to our country.
    Now, one other issue that was brought up in your support 
for making sure that the waiver on matching grants was not 
there. I do not suspect any of you all have an endowment or a 
foundation of over $50 million. I do not know if you want to--
some of you all are--well, two of you all are public, so 
everything generally is revealed there. Would you all mind 
sharing with us--Dr. DeLauder, of course, represents Delaware 
State and others. If you would feel comfortable, could you 
share with me--obviously, this is the public--how much of an 
endowment or foundation you all have at Delaware State? And Dr. 
DeLauder, if you could say the average for all of the colleges 
you represent in your association.
    Dr. DeLauder. I am not sure that I can give you an average 
number, and it obviously will vary between the privates and the 
publics, but at Delaware State, our endowment is about 12 
million.
    Senator Allen. 12 million?
    Dr. DeLauder. With a better market, it would be a little 
better than that, but you understand.
    Senator Allen. Thank you.
    Dr. Fernandez, at Lehman College, do you have any private 
endowment there or----
    Dr. Fernandez. Yes, we do. We----
    Senator Allen.--are you part of----
    Dr. Fernandez.--we have a foundation, a college-related 
foundation. And the last time I looked, a couple of days ago, 
it was about a little over $6 million. It was as high as about 
nine, but with the market, that has changed significantly.
    Senator Allen. So you are in favor of ending double 
taxation of dividends?
    [Laughter.]
    Senator Allen. I am joking. You do not need to answer.
    [Laughter.]
    Senator Allen. Congressman Flake, at Wilberforce?
    Dr. Flake. Yeah, we were up to about----
    Senator Allen. You are a unique one in that I think, 
Wilberforce is, clearly, the oldest--is not the oldest----
    Dr. Flake. The oldest and seemingly the poorest at the 
table here.
    [Laughter.]
    Senator Allen. Oh, alright. Okay.
    Dr. Flake. Our endowment is--with the market hit, it is 
about 2.3 mil.
    Senator Allen. Believe it or--Dr. McDemmond, of course, 
yours if a newer--as you mentioned, but I would--what was your 
figure?
    Dr. McDemmond. Seven million, and we have a foundation 
where that money resides.
    Senator Allen. Yours, Dr. Monette, would be a variety of 
them, but do you have a range?
    Dr. Monette. Excuse me, Senator. What is an endowment, 
please?
    [Laughter.]
    Senator Allen Oh, it is what you might have in the cookie 
jar.
    [Laughter.]
    Senator Allen. Rainy-day fund, whatever.
    Dr. Monette. I do not know the situation at each of the 
tribal colleges, but I know collectively we are very poor, and 
I would guess no endowments.
    Senator Allen. All right.
    As best I understood, just for your information in research 
this, this matching opportunity, only--Hampton University and 
Howard University would be the only two of which I am aware 
where this might could be----
    Dr. Flake. And Spelman.
    Senator Allen. Excuse me?
    Dr. McDemmond. And Spelman.
    Dr. Flake. Spelman.
    Senator Allen. And Spelman, all right. There. Good. Thank 
you. And Spelman. So there are three. It could be waived, as 
well.
    And I do take your point, and it is very--when we crafted 
this legislation with the National Science Foundation, please 
understand that we want you all--and your peer review is going 
to be very important, and in the event that any of you all or 
other Hispanic Serving Institutions or Historically Black 
Colleges and universities or tribal colleges or institutions 
are involved, it is very important that you provide strict 
scrutiny to make sure that any of these grants are going to be 
used for appropriate purposes. Integrity is important, and I 
know that you all take that very seriously. You are caring 
leaders, you are knowledgeable leaders, but you need to be 
involved, because some people may not understand what you 
understand about the needs.
    Let me finish off with this question, which is a broader 
question. It came up somewhat last year. I was just asked about 
it on the way to the hearing today. And while in this situation 
here that we have been talking about, you are all--your 
institutions, your colleges and universities are serving 
predominantly African-Americans or Hispanics, Latinos, or 
American Indian tribes, this also applies to Alaskans and 
Hawaiian facilities. The primary factor, it seems in your 
challenge is here. While in the past it may have been race and 
racial discrimination, the present situation is based primarily 
on income.
    You are talking about where many of your students have come 
from. Again, Dr. Monette gave the statistics across the board. 
Would you say that a key determining factor of this digital 
divide on your campuses is one of income, as opposed to race?
    Granted, it plays out in your institutions on a cultural or 
ethnic or racial pattern, but would you say a key determining 
factor is income?
    Dr. McDemmond. I would definitely say so. We see the 
students at even other of the HBCUs that really have a higher 
profile, socioeconomic profile, and the disparity in the 
digital divide is not as great. They come with laptops to some 
of our richer HBCUs. But when you have a profile like we have 
at Norfolk State, with income under $25,000, median family 
income, and most of them are working, and our average age is 
27, that we really see this disparity more than at some of the 
wealthier HBCUs.
    Senator Allen. That is sort of the one thing--throughout, 
you are talking about how many students are in student aid, the 
inability of students to have their own laptop, and then on top 
of it all, the university or college does not have as much of 
the capabilities, whether it is WiFi or the wiring for the 
distance learning and so forth.
    Dr. DeLauder, did you----
    Dr. DeLauder. Yeah, I would agree with that as it relates 
to students. But I think in terms of our institutions, even 
though one may argue that we are being more fairly funded now, 
we have had decades and decades of under-funding. And so when 
you are confronted with trying to set budget priorities in 
terms of resources that you are getting, let us say, from the 
state, you have to take care of some fundamental things that we 
are not taking care of, and, therefore, you cannot just 
allocate the kind of resources to technology that you would 
like to.
    So I think the issue of past discrimination, if that is 
what you want to call it, de facto or otherwise, is an element, 
because that is really why we are where we are now despite the 
fact that things have changed. But we have not made up for the 
past disparities.
    Senator Allen. Right. Agreed, thank you.
    Yes, Dr. Fernandez?
    Dr. Fernandez. Yes. At the University, for the first time 
last year, a fee earmarked for technology was reluctantly 
adopted by the trustees of $75 a semester, so $150 a year. 
Those funds have to be identified and can only be spent for 
that. Now, this has allowed us to provide students with a lot 
more computers, replacing equipment on a regular basis. Some of 
these machines are on 18 hours a day, and they do not last more 
than two or three years. So they--we did not have any money in 
our budget to do that. But to do this on the backs of students, 
most of whom require financial aid, and when those funds are 
being cut, and now the university is considering a major 
tuition increase that has been proposed by the governor--it is 
up for debate--but it is going to create a very difficult 
situation for our students. So all the more, the need is there.
    Senator Allen. Thank you, Dr. Fernandez.
    At a prior meeting, Dr. McDemmond and other college 
presidents were talking about the need for financial aid, where 
if you are at a certain universities--University of Virginia, 
University of Georgia, North Carolina, Syracuse, University of 
Delaware--the student fee increases. No one enjoys them, but 
folks can afford them, various student activities fees. And 
what you have is a continuation of the prior discrimination, 
racial discrimination, in this country. It was separate and not 
equal. And therefore, as it is perpetuated, it is not 
surprising that basic infrastructure and students--most 
people--and we brought this up earlier, some were involved--if 
you all were involved in it--but if students are graduating and 
getting good jobs, they are going to be very grateful and 
appreciative of their alma mater, and they are going to be 
giving money back and helping them out and so forth. And to the 
extent that that has gone on for generations, there is not de 
jure discrimination now, but nevertheless that is how 
endowments are built up.
    Some of you--Wilberforce is older, but, nevertheless, if 
the schools are being underfunded, the students are not doing 
as well, and, again, the chasm or the canyon, the digital 
divide canyon amongst institutions that--of course, it is not 
the institutions we care about; it is the students who are not 
getting that education that they could be getting.
    And again, with technology being so key to the future, that 
means their job opportunities in the future will be limited. 
And again, to the extent that you do care back about the 
institutions, you want your graduates doing well and then, of 
course, helping whichever--however they want to be generous 
back to you.
    So I thought it was important, in looking at this digital 
divide, that it a lot of times is called that, but it is an 
economic digital divide. It is played out in a ricocheting way 
in your institutions that this measure tries to address and 
tries to help, because we need everyone rowing on this boat we 
call America. All people. Everyone needs that oar, that ability 
to row that oar, whether you are in the high plains or whether 
you are in the inner cities or in any region of this country.
    And I thank each and every one of you all for your great 
leadership at your institutions and, in some cases, in a larger 
area of associations. And we will need your help as we go 
forward here. Your testimony is very helpful. I think we are on 
a good start. We have much more support, at least on my side of 
the aisle, this year than we did last year. I think I was about 
the sole member on it. But we are going to move forward with 
this. We will get a vote as soon as possible, when Senator 
McCain holds a vote, a business meeting of this Committee. I 
hope to get it on the floor. I would love to see unanimous 
consent and then get it passed on the House side. There are two 
members, a bipartisan duo--I do not want to announce their 
names here--but bipartisan groups. Some of you know who they 
are. Hopefully they will be introducing companion legislation 
on the House side on it, as well.
    So if any of you have anything else to comment--if not, 
thank you again. Thank everyone for participating and your 
interest.
    Meeting adjourned.
    [Whereupon, at 4:00 p.m., the hearing was adjourned.]
                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    Mr. Chairman, thank you for holding this important hearing today on 
the technology needs of minority-serving institutions.
    As we all know, access to the Internet is no longer a luxury, but a 
necessity. Due to the rapid advancement and growing dependence on 
technology, being digitally connected is becoming ever more critical to 
economic and educational advancement. Now that a multitude of Americans 
regularly use the Internet to conduct daily activities, people who lack 
access to these tools are at an increasing disadvantage. Consequently, 
it is crucial that all institutions of higher education provide their 
students with access to the most current information technology.
    Unfortunately, however, due to economic constraints, many minority-
serving institutions are unable to provide adequate access to the 
Internet and other information technology tools and applications. This 
lack of access creates a split between technology ``haves'' and ``have 
nots'' known as the ``digital divide.'' S. 196, the Digital and 
Wireless Technology Program Act of 2003 seeks to bridge this divide by 
creating a grant program that will provide minority-serving 
institutions with funds to be used for such activities as campus 
wiring, equipment upgrades, and technology training.
    Last Congress, similar legislation reported by this Committee was 
denied a vote in the full Senate. This Congress, I hope that Senators 
Allen, McCain, myself, and others can work together to get this 
legislation enacted into law in order to make this program a success.
                                 ______
                                 
             Prepared Statement of Hon. Frank Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, I commend you for holding this hearing today.
    The ``Digital Divide'' is real, and it's growing. A 
disproportionate number of African-Americans, Hispanics, and Native 
Americans are on the wrong side of the Divide and that threatens their 
ability to get the training and get the jobs that will help them close 
the ``Economic Divide.''
    Mr. Chairman, I'm going to take a close look at your bill, the 
Digital and Wireless Network Technology Program Act (S. 196). As I 
understand the bill, it authorizes the National Science Foundation 
(NSF) to pay out a total of $1.250 billion in grants over the next five 
fiscal years to Minority-Serving Institutions (MSIs), who could use the 
money to wire their campuses, upgrade network infrastructure to improve 
connectivity, provide technology training, and purchase hardware and 
software.
    The bill certainly has merit because it meets a demonstrated need.
    But in all candor, I wonder how we're going to pay for it.
    The Administration just submitted a budget request that projects a 
budget deficit of $307 billion in Fiscal Year (FY) 2004, $208 billion 
in FY 2005, $201 billion in FY 2006, $178 billion in FY 2007, and $190 
billion in FY 2008.
    In other words, the Administration is projecting a cumulative 
budget deficit of nearly $1.1 trillion at the same time this bill is 
authorizing $1.250 billion in new expenditures.
    Don't get me wrong--I would be in favor of such expenditures. But I 
think the Chairman's bill highlights the basic problem of a budget 
proposal that would cut the government's revenues even more than they 
were reduced in 2001.
    If S. 196 were to become law, I wonder if it would suffer the same 
fate as these programs: Education Technology State Grants--frozen at FY 
2002 levels (which means the program is cut in real terms); Indian 
Education Grants to Local Education Agencies (LEAs)--frozen at FY 2002 
levels; Indian Education Special Programs--frozen at FY 2002 levels;
    Minority Science and Engineering Improvement--frozen at FY 2002 
levels; Tribally Controlled Postsecondary Vocational and Technical 
Institutions--frozen at FY 2002 levels; Pell Grant maximum awards--
frozen at the FY 2002 level.
    And then there's 21st Century Community Learning Centers--cut 40 
percent below FY 2002 levels; Education for Native Hawaiians--cut 40 
percent below FY 2002 levels; and Strengthening Alaska Native and 
Native Hawaiian-serving Institutions--cut 38 percent below FY 2002 
levels.
    And, finally, there's Community Technology Centers--eliminated 
altogether; Migrant and Seasonal Farmworkers Vocational Education--
eliminated altogether; Tech-Prep Education State Grants--eliminated 
altogether; Thurgood Marshall Legal Education Opportunity Program--
eliminated altogether.
    In fairness, there are some small increases in the President's 
budget request for Historically Black Colleges and Universities 
(HBCUs), Hispanic-Serving Institutions (HSIs), and Tribally-Controlled 
Institutions (TCIs).
    But the overall Fiscal Year 2004 budget request for education--
after paying down the prior year Pell Grant shortfall--is just a 1.9 
percent increase over the President's Fiscal Year 2003 request. That 
doesn't cover inflation.
    I just don't know how we can fund a new program, continue funding 
worthwhile existing programs, and propose bigger and bigger cuts in the 
government's revenues. I think any reasonably good math student would 
tell us that the numbers just don't add up.

        Thank you, Mr. Chairman.

                                  <all>

</pre></body></html>
